<html>
<title> - HONG KONG'S SUMMER OF DISCONTENT AND U.S. POLICY RESPONSES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                  HONG KONG'S SUMMER OF DISCONTENT AND


                         U.S. POLICY RESPONSES




=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2019

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


              Available at www.cecc.gov or www.govinfo.gov
              
              
              
              
                            ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
 37-960 PDF              WASHINGTON : 2019
              
              


            .....................................................

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Cochairman
Chairman                             JAMES LANKFORD, Oklahoma
MARCY KAPTUR, Ohio                   TOM COTTON, Arkansas
THOMAS SUOZZI, New York              STEVE DAINES, Montana
TOM MALINOWSKI, New Jersey           TODD YOUNG, Indiana
BEN McADAMS, Utah                    DIANNE FEINSTEIN, California
CHRISTOPHER SMITH, New Jersey        JEFF MERKLEY, Oregon
BRIAN MAST, Florida                  GARY PETERS, Michigan
VICKY HARTZLER, Missouri             ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director

                                  (ii)
                                  


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. James P. McGovern, a U.S. 
  Representative from Massachusetts; Chairman, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Marco Rubio, a U.S. Senator from Florida; 
  Cochairman, Congressional-Executive Commission on China........     3
Statement of Hon. Christopher Smith, a U.S. Representative from 
  New Jersey.....................................................     6
Joshua Wong, Secretary-General of Demosisto, pro-democracy 
  activist, and Umbrella Movement leader.........................     9
Denise Ho, pro-democracy activist and award-winning Cantopop 
  singer and actress.............................................    11
Sunny Cheung, spokesperson for the Hong Kong Higher Institutions 
  International Affairs Delegation...............................    13
Sharon Hom, Executive Director of Human Rights in China and 
  Professor of Law Emerita at City University of New York School 
  of Law.........................................................    14
Daniel Garrett, Ph.D., political scientist and author of 
  ``Counter-Hegemonic Resistance in China's Hong Kong: 
  Visualizing Protest in the City'' (2014).......................    17

                                APPENDIX
                          Prepared Statements

Wong, Joshua.....................................................    49
Ho, Denise.......................................................    50
Cheung, Sunny....................................................    52
Garrett, Daniel..................................................    56
Hom, Sharon......................................................    65

McGovern, Hon. James P...........................................    72
Rubio, Hon. Marco................................................    73
Smith, Hon. Christopher..........................................    74

                       Submissions for the Record

Witness Biographies..............................................    77

                                 (iii)


       HONG KONG'S SUMMER OF DISCONTENT AND U.S. POLICY RESPONSES

                              ----------                              


                      TUESDAY, SEPTEMBER 17, 2019

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:00 
a.m., in room 419, Dirksen Senate Office Building, 
Representative James P. McGovern, Chairman, presiding.
    Also present: Senator Rubio, Cochairman, Senators King, 
Daines, Young, and Peters, and Representatives Suozzi, Smith, 
and McAdams.

      OPENING STATEMENT OF HON. JAMES P. McGOVERN, A U.S. 
  REPRESENTATIVE FROM MASSACHUSETTS; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman McGovern. The committee will come to order. Good 
morning and welcome to today's hearing on Hong Kong's Summer of 
Discontent and U.S. Policy Responses.
    This is the second China Commission hearing this year on 
the situation in Hong Kong. During our May hearing, the 
Commission heard compelling testimony from Hong Kong pro-
democracy advocates, including Martin Lee and Nathan Law, who 
expressed serious concerns about the extradition bill that was 
quickly moving toward becoming law at that time. That 
legislation would have put anyone in Hong Kong, including U.S. 
citizens, at risk of extradition to mainland China where a lack 
of due process and custodial abuse have been well documented.
    Over the last 16 weeks, millions of people from all walks 
of life in Hong Kong have taken to the streets in an 
unprecedented and sustained show of unity. The protesters have 
inspired the world and have risked their lives, their health, 
their jobs, and their education to fight for the future of Hong 
Kong. Thank you for your courage and thank you for your 
bravery. We stand in solidarity with you.
    As protests continued throughout the summer, Hong Kong 
police used excessive and unnecessary force to target those 
engaged in peaceful demonstrations. The U.N. High Commissioner 
for Human Rights has called for an investigation. The U.K. has 
suspended export licenses for the sale of tear gas and crowd-
control equipment. And the House of Representatives--
Congressman Chris Smith and I--have introduced H.R. 4270, the 
PROTECT Hong Kong Act, that would prohibit U.S. exports of 
police equipment to Hong Kong. U.S. companies should not be 
selling equipment used to violently crack down on pro-democracy 
protesters. I hope Congress will pass this legislation as soon 
as possible.
    Although consideration of the extradition bill has been 
suspended, the people of Hong Kong are calling for greater 
accountability and democratic participation. It's my 
understanding that the Hong Kong protesters have outlined five 
demands of Hong Kong and Chinese authorities. I look forward to 
hearing from today's witnesses what those demands are 
specifically, what progress has been made by the Chinese and 
Hong Kong governments on achieving them, what remains to be 
done, and how we in Congress and the international community 
might be helpful.
    The ``one country, two systems'' framework was enshrined in 
the 1984 Sino-British Declaration and Hong Kong's Basic Law. 
This is an international treaty signed by the Chinese 
government to allow Hong Kong a high degree of autonomy with 
the ultimate aim of electing its Chief Executive and 
Legislative Council members by universal suffrage.
    The 2014 Umbrella Movement protests were sparked by the 
Chinese government reneging on its commitment to make Hong Kong 
more democratic. It is the continuing erosion of Hong Kong's 
autonomy and rule of law that fuels the protests in Hong Kong 
today.
    Over the last five years, the Chinese government has 
prioritized control over Hong Kong by stifling free expression 
and restricting the space for democratic participation. We have 
seen the prosecution and sentencing of pro-democracy leaders, 
the disqualification and removal of pro-democracy legislators, 
and the introduction of a new national anthem bill that would 
restrict free expression.
    Anson Chan, the former Hong Kong Chief Secretary and 
Legislative Council member recently offered this insight: ``If 
only Beijing would understand what makes Hong Kong tick, what 
are the values we hold dear, then they can use that energy to 
benefit both China and Hong Kong. Instead, they have this 
mentality of control.''
    While the protests were sparked by concerns about the 
extradition bill, the heart of the discontent is that Hong 
Kong's political leaders do not represent and are not 
accountable to the people. Instead, Hong Kong's leaders are 
beholden to the Chinese government.
    Millions of people would not have to protest in the streets 
if they could freely choose their political leaders. I hope the 
Chinese government would understand that stability and 
prosperity can be achieved if Hong Kong's autonomy is respected 
and if the Chief Executive and Legislative Council members were 
elected without Chinese influence over candidate selection.
    In light of the continuing erosion of Hong Kong's autonomy 
and the recent violence against peaceful protesters, I believe 
it is time for the United States to reconsider its policies 
toward Hong Kong. U.S.-Hong Kong relations are governed by the 
U.S.-Hong Kong Policy Act of 1992 that commits the United 
States to treating Hong Kong as a separate customs territory 
from the rest of China so long as Hong Kong remains 
sufficiently autonomous.
    I am proud to support H.R. 3289, the Hong Kong Human Rights 
and Democracy Act, sponsored by Senator Rubio and Congressman 
Smith. The legislation would require the Secretary of State to 
certify on an annual basis that Hong Kong is sufficiently 
autonomous in order to justify special economic, financial, and 
trade treatment different from mainland China under U.S. law.
    It is time we put the Chinese government on annual notice 
that further erosion of autonomy or a crackdown in Hong Kong 
will cause the city and by extension mainland China to lose its 
special economic and trade arrangement with the United States. 
Over the years, Hong Kong has prospered and become the 
financial center of Asia because of its strong commitment to 
the rule of law, good governance, human rights, and an open 
economic system. The erosion of this unique system threatens 
not only the people who attempt to speak out, but the economic 
vitality of the city itself.
    So to be clear, we stand together with the people of Hong 
Kong and, indeed, all the people of China when we express our 
concerns about the human rights violations of the Hong Kong and 
Chinese governments. Our focus today is doing right by the 
people of Hong Kong as they seek a democratic future that 
protects Hong Kong's autonomy and rule of law.
    At this point, I would like to yield to the Cochair, 
Senator Rubio.

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Cochairman Rubio. Thank you, Mr. Chairman, for convening 
this important hearing and for your willingness to host it here 
on the Senate side.
    Chairman McGovern. It's kind of nice over here.
    Cochairman Rubio. It is quiet.
    Chairman McGovern. Yes.
    [Laughter.]
    Cochairman Rubio. A little different pace. We had four 
votes yesterday. Today people will be exhausted.
    Chairman McGovern. Yes.
    [Laughter.]
    Cochairman Rubio. But anyway, I want to thank you for doing 
this. I look forward to our continued partnership on this 
Commission, and particularly as it relates to this topic.
    I also want to thank all of our witnesses, especially those 
who are on the front lines and have even been jailed multiple 
times, and we'll hear from them today about the things that 
have been done against them. And your commitment to freedom and 
democracy is inspiring. It really is inspiring for those of us 
who live in this republic. It reminds us of why so many of us 
serve here and what we seek to preserve around the world. And 
that's why we want to stand with you.
    Your fight and the fight of your fellow Hong Kongers is the 
fight of every human who yearns for liberty and dignity and 
demands that their fundamental rights be respected and upheld. 
Let me say at the outset to the people of Hong Kong, We stand 
with you, and by we, I mean this is a bicameral, bipartisan 
commitment, as you will see today and have seen in the past few 
days, on these efforts across both political parties and every 
major figure. And not only that, but many Americans stand with 
you in your fight to keep your long-cherished freedom.
    It was only a few months ago in May that we held a hearing 
on Hong Kong. It was titled ``Hong Kong's Future in the 
Balance: Eroding Autonomy and Challenges to Human Rights.'' At 
that hearing and before, it was highlighted on the facts that 
the Chinese Communist Party has been eroding Hong Kong's 
autonomy and freedoms guaranteed by the Joint Declaration and 
by the Basic Law.
    The May hearing discussed the extradition bill that, had it 
passed, would have exposed everyone in Hong Kong--and that 
includes, by the way, 80,000 Americans who reside there--it 
would have exposed them to the justice system or the so-called 
justice system of the Chinese Communist Party. The same justice 
system that routinely tortures those in its custody, that 
denies critically needed medical care, that arrests lawyers for 
serving their clients, and that places the desires of the 
Communist Party above every and any demand for justice.
    The proposed bill exposed the very real and increasing 
threat to Hong Kong's autonomy. But few of us could have 
anticipated the events that would follow. Since June, the 
people of Hong Kong have bravely taken to the streets for 15 
straight weeks and more than 400 separate demonstrations 
involving more than 8 million people of every age and every 
background.
    Recently there have been very credible reports that have 
emerged of the police's brutal treatment of demonstrators while 
in their custody. This weekend, for example, we saw images of 
the police holding down a protester whose head was bleeding and 
spraying pepper spray into the wound, which is an act of total 
cruelty. We watched the police throw tear gas grenades at 
journalists, many of whom were well far away from the 
demonstrators.
    Since the 21st of July, pro-Beijing thugs associated with 
organized crime and the Party's United Front activities have 
violently confronted demonstrators, journalists, and innocent 
passersby, and the police just looked on, looked the other way, 
and in some cases even cooperated. And while detained 
demonstrators have been beaten or their faces smashed into the 
concrete, journalists have photographed these same thugs in 
``detention,'' smoking and playing on their cell phones after 
attacking journalists and demonstrators.
    Although Hong Kong's Chief Executive may have promised 
today to withdraw the extradition bill when the Legislative 
Council reconvenes in October, the government's violent 
response to the demonstrations demands accountability. And yet, 
Lam and the Hong Kong government refuse to press for any 
accountability for the violence by Hong Kong security forces 
that was committed and continues to be committed against 
peaceful protesters.
    The Chief Executive did not listen to the outcry against 
the bill in Hong Kong since its introduction, but rather tried 
to ram it through the legislature.
    So what's at stake? The Hong Kong government's stubbornness 
in the face of public outcry has launched one of the greatest 
people-power movements we have witnessed in recent memory. The 
actions of the government and the people demonstrate that there 
are two Hong Kongs. The Hong Kong of the government, totally 
leveraged by the Chinese government, has proven that it is not 
committed to a free and autonomous future for Hong Kong, nor is 
it one of rule of law or of justice. The other Hong Kong, the 
real one, is the one of its people--the students and youth 
activists, artists, journalists, doctors and nurses, lawyers, 
accountants, business people--from every walk of life, the 
city's people, of all ages, who have shown us a Hong Kong with 
a vibrant civic life, prepared to stand up for its own 
autonomy, democracy, and liberty.
    It is clear that these two very different Hong Kongs are 
colliding, and therefore the city is at a crossroads. The fact 
of the matter is maintaining Hong Kong's autonomy is critical 
to U.S. interests and it also has real implications for the 
United States and for the rest of the world.
    Hong Kong's status as an international trade and investment 
hub is threatened just as long as the long-cherished freedoms 
of the Hong Kong people are being threatened. Threatened--by 
the way--not by us, but by the Communist Party of China.
    So it is my belief that it's long overdue for the United 
States and the free world to respond. I hope we quickly pass 
the Hong Kong Human Rights and Democracy Act, which I hope will 
be heard next week in committee so that we can provide this and 
future administrations with updated tools to respond robustly 
and flexibly to the Chinese Communist Party and its proxies who 
are undermining Hong Kong's autonomy.
    The U.S. Government and other democracies need to hold 
Chinese and Hong Kong officials accountable for their failure 
to uphold their commitments. The United States and other 
nations have options precisely--precisely because Beijing 
benefits from Hong Kong's special status, a special status 
which has made Hong Kong an international financial center 
built on the promises that China made to the world with regard 
to Hong Kong which they now seek to break.
    China's leaders must either respect Hong Kong's autonomy or 
know that their escalating aggression will lead them to face 
real consequences, not just from the United States, but from 
the free world. And I issue one final warning in this regard. I 
anticipate fully that they will continue their work to turn the 
system of government in Hong Kong to more resemble the one that 
exists in Macau, one that allows them to intervene in the legal 
system as they wish.
    So we're here today to examine what has happened, to look 
forward to Hong Kong's future. There are many challenges in our 
relationship with China, but Hong Kong must remain a priority. 
Hong Kong is not a Chinese internal affair, and the world has a 
responsibility to help the people of Hong Kong move toward a 
future that protects their individual freedoms and provides for 
civic well-being.
    I look forward to hearing your views and today's 
discussion. I thank you for your courage and for your 
commitment.
    Chairman McGovern. Thank you very much.
    Let me just emphasize one thing Senator Rubio said. We 
represent up here on this Commission a diverse political 
spectrum, from the left to the right and everything in between.
    We have lots of differences on lots of issues. We probably 
couldn't even agree on what to have for lunch. But we have one 
thing in common, and that is we believe your cause is noble and 
just. And we are honored that you are all here today.
    So we want to welcome this distinguished panel. I will 
introduce each one of them, and then we will go to testimony.
    I yield to Mr. Smith.

             STATEMENT OF HON. CHRISTOPHER SMITH, 
             A U.S. REPRESENTATIVE FROM NEW JERSEY

    Representative Smith. Thank you very much, Mr. Chairman.
    Thank you very much. What a panel of heroes, the best and 
the bravest and brightest. Thank you for being here and bearing 
witness to a very ugly truth as to what Hong Kong is doing.
    It has been a long hot summer in Hong Kong, as we all know. 
The inspiring and courageous protests there are a daily 
reminder of the stark differences between free and 
authoritarian societies.
    The people of Hong Kong have shown the world that a free 
people will not accept the boot of repression without protest. 
The millions of Hong Kong protesters have also done the world a 
great service. They have exposed Beijing's plan to erode 
freedoms guaranteed to the people of Hong Kong by international 
treaty. They have exposed Beijing's pernicious and repressive 
behavior.
    And have no doubt about it, the Chinese government is both 
uniquely repressive and incredibly paranoid about maintaining 
its grip on power. Today there are over a million Uyghurs 
interned in Orwellian political education camps. Human rights 
lawyers have disappeared, have been horribly tortured in 
detention. Christians, Tibetans, labor activists, and 
journalists as well face egregious abuse in the most intrusive 
system of surveillance operating in the world today.
    Why would anyone want their political fate determined by 
Beijing? If given a choice, no one would.
    As inspiring as the protests have been, they have also 
raised serious concerns about the actions of the Hong Kong and 
Chinese Communist governments. The violence and the use of 
force perpetrated against the protesters by thugs and police--I 
repeat myself--is extremely alarming.
    Representative McGovern and I were the first Members of 
Congress to call on the Trump Administration to suspend the 
sale of tear gas, rubber bullets, pepper spray, and other 
crowd-control equipment to the Hong Kong police. And I agree 
with him, we need to quickly pass the PROTECT Act that we 
introduced last week.
    Also alarming are the repeated and irresponsible threats of 
intervention made by Chinese officials, particularly given that 
this year marks the 30th anniversary of the Tiananmen Square 
massacre. The Hong Kong and Chinese governments are alone 
responsible for the grievances expressed by the protesters. And 
they alone can peacefully end the protests by addressing the 
demands for universal suffrage and investigation of police 
threats.
    Blaming the United States Government and blaming the U.S. 
Congress for the protests is an act of cowardly propaganda and 
not befitting a nation such as China which has aspirations of 
global leadership. It is time for U.S. policy to respond to 
Beijing's long-term ambitions in Hong Kong and pass the Hong 
Kong Human Rights and Democracy Act.
    Five years ago, Mr. Chairman, I introduced the Hong Kong 
Human Rights and Democracy Act with my CECC Cochair, Senator 
Brown. The bill allows for a more robust U.S. response to the 
steady erosion of Hong Kong's autonomy and human rights. Over 
the years Senator Rubio and I have upgraded the bill--and you 
as well--to reflect the kidnapping of booksellers, the 
disqualification of elected lawmakers, and the political 
prosecution of Joshua Wong, Nathan Law, Benny Tai, and others.
    However, every time--every single time we pushed for 
passage, there was opposition from the diplomats, the so-called 
experts, the committee chairs of both the House and the Senate, 
and the American Chamber of Commerce in Hong Kong. We were told 
not to upset the status quo. We were told that upgrading U.S. 
policy would undermine their efforts with Beijing and its hand-
selected political leaders in Hong Kong. We were told that our 
bill would cost U.S. businesses.
    It is the exact same advice that we have been hearing on 
China since Tiananmen Square. And the big issue was then MFN.
    China experts have failed the American people, and their 
advice helped to gut parts of our own economy. Their advice 
this time will fail the people of Hong Kong as well.
    Specifically Mr. Chairman, as you know, the bill directs 
the Secretary of State to certify to Congress annually as to 
whether Hong Kong continues to deserve special treatment under 
U.S. law that is different from mainland China in such matters 
as trade, customs, sanctions enforcement, law enforcement 
cooperation, and protection of human rights and the rule of 
law.
    It directs the State Department not--I say not--to deny 
entry visas based on an applicant's arrest or detention for 
participating in nonviolent protest activities in Hong Kong. It 
requires an annual report from the Commerce Department on 
whether the Hong Kong government adequately enforces U.S. 
export controls and sanctions laws.
    It requires the Secretary of State to submit a strategy to 
Congress to protect U.S. citizens and businesses in Hong Kong 
from the erosion of autonomy and the rule of law because of 
actions taken by the Chinese Communist government.
    It requires the President to identify and sanction persons 
in Hong Kong or in mainland China responsible for the erosion 
of Hong Kong's autonomy and serious abuses of human rights.
    We have wide agreement for this legislation. It is time 
that it passed.
    I've heard it said that the business of Hong Kong is 
business. I believe it's clear that the business of Hong Kong 
is freedom. The people of Hong Kong are working to protect the 
rights and rule of law that are the foundation of the city's 
prosperity and unique vitality.
    This Commission and so many of our colleagues in both the 
House and the Senate stand united with the people of Hong Kong 
and will not be silent in the face of threats to their 
guaranteed liberties and way of life. The U.S. and the 
international community cannot be silent or just make noise 
with nothing that backs it up. The whole world has a stake in a 
peaceful and just resolution of Hong Kong and the survival of 
the ``one country, two systems'' model.
    Hong Kong people--Gaa yau!
    I yield back.
    [Applause.]
    Chairman McGovern. Thank you.
    I am proud now to introduce our esteemed panel of expert 
witnesses this morning. Three of our witnesses traveled all the 
way from Hong Kong to provide their testimony to this Congress.
    The panel includes Joshua Wong, a pro-democracy activist 
and the Secretary General of Demosisto. At the age of 15 he 
organized protests against ``patriotic education'' in Hong 
Kong. Subsequently, he rose to prominence as a core leader of 
the 2014 Umbrella Movement.
    Mr. Wong was also one of Hong Kong's first three political 
prisoners since 1997, sentenced in 2018 with Nathan Law and 
Alex Chow for leadership roles in the Umbrella Movement. Most 
recently he was arrested in August 2019 for his role in a 
peaceful protest outside police headquarters during the anti-
extradition bill movement.
    Denise Ho, a pro-democracy and LGBTQ rights activist, and 
an award-winning Hong Kong-based singer, producer, and actress. 
Ms. Ho is a prominent supporter of the anti-extradition bill 
protests in Hong Kong and a leading figure in Hong Kong's pro-
democracy movement.
    She was arrested during the 2014 Umbrella Movement for 
taking part in nonviolent protests. The Chinese government has 
banned her from performing in China. In July 2019, Ms. Ho 
addressed the U.N. Human Rights Council in Geneva on Hong Kong, 
during which she was repeatedly interrupted by the Chinese 
delegation.
    Sunny Cheung, a spokesperson for the Hong Kong Higher 
Education International Affairs Delegation (HKIAD), and an 
activist from the Student Union of the University of Hong Kong.
    Established in July of 2019, HKIAD includes all student 
unions of universities in Hong Kong, with the primary mission 
of raising global awareness and support for Hong Kong's anti-
extradition bill protesters and the pro-democracy movement.
    Mr. Cheung has participated in and organized exchange 
events and conferences in Hong Kong, Taiwan, South Korea, the 
United States, and at the United Nations, and he recently gave 
a speech in the U.K. House of Commons in support of Hong Kong.
    Sharon Hom, the Executive Director of Human Rights in 
China, where she leads its international advocacy and strategic 
policy engagement with NGOs, governments, and multi-stakeholder 
initiatives.
    HRIC has covered human rights and democracy development in 
Hong Kong extensively, including the 2014 Umbrella Movement. 
Ms. Hom has presented in numerous hearings on a wide range of 
human rights issues before key European, U.S., and 
international policymakers.
    She is a professor of law emerita at the City University of 
New York School of Law and has taught law for 18 years, 
including training judges, lawyers, and law teachers at eight 
law schools in China.
    Daniel Garrett, a Ph.D., an author, photographer, and 
political scientist focusing on Chinese security politics and 
the securitization of Hong Kong. Since 2011, he has documented 
over 600 demonstrations, marches, and rallies in Hong Kong, 
including most recently the anti-extradition bill 
demonstrations.
    Dr. Garrett is a doctoral graduate of City University of 
Hong Kong with approximately 20 years of engagement with Hong 
Kong, and completed his dissertation on ``one country, two 
systems'' under China's national security framework.
    Dr. Garrett was a career national security professional, 
providing strategic counterintelligence and threat analysis, 
and served at the Defense Intelligence Agency, National 
Security Agency, and in the United States Air Force.
    I want to thank you all for being here. We are honored by 
your presence. We will begin with you, Mr. Wong.

 STATEMENT OF JOSHUA WONG, SECRETARY-GENERAL OF DEMOSISTO, PRO-
        DEMOCRACY ACTIVIST, AND UMBRELLA MOVEMENT LEADER

    Mr. Wong. Good morning, Chairman McGovern, Cochairman 
Rubio, and members of this Commission. It's an honor to be 
invited back to Capitol Hill to speak about developments in 
Hong Kong.
    You may recall that I last traveled to Washington more than 
two years ago and testified before this Commission in this same 
building on May 1st of 2017. What I said back then was that 
Hong Kong's ``one country, two systems'' was becoming ``one 
country, one-and-a-half systems.'' I don't think there is any 
doubt among observers who have followed recent events that 
today we are approaching dangerously close to ``one country, 
one system.'' The present state of affairs reflects Beijing's 
inability to understand, let alone govern, a free society.
    The ongoing demonstration began on June 9th when one 
million Hong Kongers took to the streets in protest of proposed 
legislation that would have allowed criminal suspects to be 
extradited from Hong Kong to China where there are no 
guarantees of the rule of law. Still, before the night had 
ended, Chief Executive Carrie Lam announced the bill's reading 
would resume in three days. Hong Kongers were preparing for the 
last fight on June 12th.
    And then the unthinkable happened. Knowing that Beijing 
controlled enough votes in the Legislative Council, protesters 
surrounded the complex earlier in the morning, successfully 
preventing lawmakers from convening. I was then serving my 
first jail sentence.
    For a moment I wondered why the news channel was replaying 
footage of the Umbrella Movement. It was not long before I 
realized Hong Kongers were back with even stronger 
determination.
    Lam suspended the bill on June 15th but fell short of fully 
withdrawing it. A historic two million people demonstrated the 
following day, equivalent to one in four out of our entire 
population. I'm not aware of anything comparable to this level 
of discontent against a government in modern history.
    I was released exactly three months ago on June 17th and 
have since joined fellow Hong Kongers to protest in the most 
creative ways possible. In addition to the bill withdrawal, we 
demand that Lam retract the label on us as rioters, drop all 
political charges, and conduct an independent investigation 
into police brutality.
    Some of us crowdfunded for newspaper advertisements ahead 
of the G20 Summit in late June, calling for the world not to 
neglect Hong Kong. Others entered the chamber of the 
Legislative Council Complex on July 1, the same day another 
half million Hong Kongers protested peacefully.
    The crowd continued to show up in large numbers in the past 
15 weekends with more rallies taking place almost daily across 
the territories. But the government would not listen. Instead 
of defusing the political crisis, it dramatically empowered the 
riot police.
    The movement reached a turning point on July 21st. That 
night, pro-Beijing thugs with suspected ties to organized crime 
gathered in the Yuen Long train station and indiscriminately 
attacked not just protesters returning home and reporters on 
the scene, but even passersby. The police refused to show up 
despite repeated emergency calls, plunging Hong Kong into a 
police state with more violence.
    On August 5th alone, the day Hong Kongers participated in a 
general strike, riot police shot 800 canisters of tear gas to 
disperse the peaceful masses. Compare that to only 87 fired in 
the entire Umbrella Movement five years ago. The police's 
excessive force today is clear. Their excessive use of pepper 
spray, pepper balls, rubber bullets, beanbag rounds, and water 
cannons--almost all of which are imported from Western 
democracies--is no less troubling.
    In light of this, I applaud Chairman McGovern and 
Congressman Smith for introducing the PROTECT Hong Kong Act 
last week. American companies must not profit from the violent 
crackdown on freedom-loving Hong Kongers.
    Cochairman Rubio is also right for recently writing that 
Hong Kong's special status under American law depends on the 
city being treated as a separate customs area. Beijing should 
not have it both ways, reaping all the economic benefit of Hong 
Kong's standing in the world while eroding our freedom. This is 
the most important reason why the Hong Kong Human Rights and 
Democracy Act enjoys the broad support of Hong Kong civil 
society.
    Lam finally withdrew the bill earlier this month. But just 
as protesters had long ago stopped calling for her resignation, 
so this decision was almost meaningless by then. The movement 
is far from over, because it has moved beyond one bill or one 
person.
    Our most important demand is genuine structural change in 
Hong Kong, which means free elections. Our government's lack of 
representation lies at the heart of the matter.
    As I speak, Hong Kong is standing at a critical juncture. 
The stakes have never been higher. We are confronted by the 
huge Chinese military buildup just across the border in 
Shenzhen.
    President Xi Jinping is unlikely to take hardline action 
before the upcoming National Day in October. But no one can be 
sure what's next. Sending in the tanks remains irrational, but 
not impossible. With China's interference in Taiwan, Tibet, and 
especially Xinjiang, it serves as a reminder that Beijing is 
prepared to go far in pursuit of its grand imperial project.
    I was once the face of Hong Kong's youth activism. In this 
leaderless movement my sacrifice is minimal compared to those 
among us who have been laid off for protesting, who have been 
injured but too afraid of even going to a hospital, or who have 
been forced to take their own life. Two have each lost an eye. 
The youngest of the 1,500 arrested so far is a 12-year-old 
schoolboy.
    I don't know them personally, yet their pain is my pain. We 
belong to the same community, struggling for our rights of 
self-determination so we can build one brighter and common 
future.
    A child born today will not even have celebrated his or her 
28th birthday by 2047, when the 50-year unchanged policy is set 
to expire. That deadline is closer to us than it appears. There 
is no return for us.
    Decades from now when historians look back, I'm sure that 
2019 will turn out to have been a watershed. I hope historians 
will celebrate the United States Congress for having stood on 
the side of Hong Kongers, the side of human rights and 
democracy.
    God bless Hong Kong. Thank you.
    [Applause.]
    Chairman McGovern. Ms. Ho, welcome.

   STATEMENT OF DENISE HO, PRO-DEMOCRACY ACTIVIST AND AWARD-
              WINNING CANTOPOP SINGER AND ACTRESS

    Ms. Ho. Thank you, Chairman McGovern, Cochairman Rubio, and 
the members of this Commission for holding this hearing and for 
having us here at this very critical moment for Hong Kong.
    For more than 100 days now, young people in Hong Kong have 
been at the forefront of our resistance. This is a leaderless 
movement with widespread participation from people of all walks 
of life.
    It is a fight for democracy, a fight for human rights, and 
most of all a fight for universal values. What started in June 
as a one-million-people march has morphed into a struggle for 
fundamental political reform in Hong Kong.
    Chief Executive Carrie Lam's misjudgments and arrogance 
worsened the situation, resulting in a total clampdown by the 
Beijing government over Hong Kong's affairs.
    To date, more than 1,500 Hong Kongers, the youngest at the 
age of 12 years old, have been unreasonably arrested. Sadly, it 
has become a daily occurrence to see youngsters being pinned to 
the ground with head concussions, if not being knocked 
unconscious. Meanwhile, riot police and plainclothes officers 
have early on deliberately hidden their I.D. numbers and 
warrant cards, making it impossible for us to even certify 
their legitimacy, let alone hold them accountable.
    On August 21st, police from the special tactical unit 
charged into Prince Edward MTR station, beating up passengers 
randomly. They then shut down the station for 24 hours, 
refusing medical care for those who were injured, raising the 
suspicion of possible deaths in the station.
    Separately, now, they will be charging into secondary 
schoolyards, shopping malls, and buses where young people 
merely dressed in black can be searched or even arrested 
without justification. In other words, merely being young is a 
crime in the police state of Hong Kong.
    The protests began with an extradition bill, but at the 
core it has always been about these fundamental conflicts 
between two very different sets of values. On one hand, the 
China model which has no respect for human rights and the rule 
of law, and our hybrid city that has enjoyed these very 
freedoms for most of its existence, with a deep attachment to 
these universal values that the United States and other western 
societies treasure.
    Hong Kong represents something unique in the world. We have 
long held dear our rule of law, transparent institutions, and 
freedom of expression in a part of the world where these are 
more often threatened than upheld. However, this system is now 
under great threat. Companies like Hong Kong's major airline 
Cathay Pacific have succumbed to political pressure, firing 
dozens of employees due to their political stance. The business 
community is coerced into making political decisions.
    As a singer and activist from Hong Kong, I have experienced 
this oppression first hand. Ever since the Umbrella Movement in 
2014, I have been blacklisted by the Communist government. My 
songs and my name are censored on Chinese internet. Pressured 
by the Chinese government, sponsors have pulled out. Even 
international brands have kept their distance.
    For the past five years and even more so recently, China 
tried to smear and silence me with their propaganda machine, 
spreading false claims. Right now, I am facing threats from 
pro-Beijing supporters and could face arrest and prosecution at 
any time. Not only have I faced difficulties in both China and 
Hong Kong, but the self-censorship has now spread toward global 
institutions and cities.
    Recently the National Gallery of Victoria in Melbourne, 
Australia denied a venue to an event of Chinese artist Badiucao 
and me due to security concerns. Celebrities from Hong Kong, 
Taiwan, and China are all pressured into voicing their 
unanimous support for the Beijing government and could be 
condemned for keeping their silence.
    Hong Kongers are now living in constant fear and have 
unfortunately lost most of our freedoms. For a city that has 
been famously known as politically indifferent, the younger 
generations have taken up the road to safeguard our home, 
standing up courageously to the corrupt system in spite of 
increased suppression.
    To the rest of the world, the United States is often a 
symbol of freedom and democracy. The freedom Americans enjoy is 
something that the people of Hong Kong have long hoped for. 
Even though our languages and cultures differ, what we have in 
common is the pursuit of justice, freedom, and democracy.
    Through the challenges of Hong Kong, the West is also 
waking up to China's insinuating power on a global scale. Hong 
Kong is connected to the world in multiple ways, but China is 
trying to isolate it to exert control. If Hong Kong falls, it 
would easily become the springboard for the totalitarian regime 
of China to push its rules and priorities overseas, utilizing 
its economic power to conform others to their Communist values 
just as they have done with Hong Kong in the past 22 years.
    The U.S. and its allies have everything to fear if they 
wish to maintain a world that is free, open, and civil. I 
therefore urge the U.S. Congress to stand by Hong Kong and most 
of all to pass the Hong Kong Human Rights and Democracy Act. 
This is not a plea for so-called foreign interference. This is 
a plea for democracy. This is a plea for the freedom to choose.
    And lastly, I would like to quote Eleanor Roosevelt, your 
most beloved first lady. ``You gain strength, courage and 
confidence by every experience in which you really stop to look 
fear in the face. You are able to say to yourself, `I lived 
through this horror. I can take the next thing that comes 
along.' ''
    This is a global fight for the universal values that we all 
cherish. And Hong Kong is on the very front lines of this 
fight. We were once fearful of what might have come with our 
silence. And for that, we have now become fearless.
    Thank you.
    [Applause.]
    Chairman McGovern. Thank you. Thank you.
    Mr. Cheung, welcome.

   STATEMENT OF SUNNY CHEUNG, SPOKESPERSON FOR THE HONG KONG 
 HIGHER EDUCATION INTERNATIONAL AFFAIRS DELEGATION (HKIAD) AND 
             STUDENT AT THE UNIVERSITY OF HONG KONG

    Mr. Cheung. Chairman McGovern, Cochairman Rubio, and 
members of the Commission, thank you for your invitation to 
this hearing.
    Last year, Chinese President Xi Jinping said in a closed-
door meeting that China would never embrace the judicial 
independence of the West. This is why people in Hong Kong are 
trying hard to reject the extradition bill, because we do not 
believe in a country who looks down on human rights, 
disqualifies our legislators, and kidnaps our booksellers. We 
want to protect our legal system as the last barrier against 
Beijing's political interference.
    Apart from asking for the withdrawal of the bill, Hong Kong 
people also demand an investigation into police brutality to 
save Hong Kong from turning into a police state. More 
importantly, we demand universal suffrage.
    We believe that without any structural political reform and 
without a government chosen by the people, there is no 
possibility for Hong Kong to restore prosperity. We cannot have 
a society compromised in the interest of individuals. The voice 
of the people should always be heard. Unfortunately, our 
government ignores our demands by saying that we have no stake 
in the society.
    Our student union members are detained, followed, beaten, 
and threatened. During the detainment, one of our student union 
members was told by the police that it was reasonable for them 
to rape some female protesters when they frequently work 
overtime.
    Besides, the authorities try to stop us from having 
peaceful class strikes when more than 50,000 students are 
participating in it. People who side with Beijing are now 
advocating the installation of surveillance cameras inside 
classrooms to monitor teachers and students who dare to support 
class strikes and support the movement.
    This apparently violates our academic freedom and freedom 
of speech. This is the ``white terror'' created by the Beijing 
government which should alert all people here.
    Nowadays, students and Hong Kong people are even ready to 
die for Hong Kong. And some already have. They believe that the 
only limit to their freedom is their death. This is the 
ultimate sacrifice for the motherland, and we must not forget 
them.
    Many students face strong objections from their families. 
Some of them are even forced to leave home. But they still head 
to the front lines carrying a letter with their last will. They 
are determined. They understand that the price of freedom is 
high. It always has been. But it is a price they are willing to 
pay, and it is a path of liberation they are willing to choose.
    We do not fight for freedom out of passion. Passion will 
burn out. We fight for freedom from a sense of duty and 
dignity. China is rising. China is using its nationalism and 
invasive economic dominance to colonize small countries and put 
intense pressure on people and companies like Cathay Pacific 
who do not conform to them. Teachers, students, civil servants, 
and businessmen are all facing political pressure in Hong Kong.
    This new form of imperialism in China poses a severe threat 
to Hong Kong. This is a crisis of values and systems. We need 
to contain the Communist Party of China.
    Offering help to Hong Kong is the primary move to contain 
China. ``One country, two systems'' will expire in 2047. The 
U.S. Government should help Hong Kong people have the right to 
decide our future. Therefore, we urge the U.S. Congress to pass 
the Human Rights and Democracy Act to expand the current 
sanction list to all individuals who infringe on our human 
rights.
    Moreover, if genuine universal suffrage cannot be achieved 
immediately, our autonomy and rule of law will continue to 
erode. The situation of China manipulating Hong Kong as a back 
door for trading with Iran and North Korea will also continue.
    If this occurs, the U.S. Government should not acknowledge 
the special status of Hong Kong. The U.S. must send a strong 
signal that this special status will be canceled if Hong Kong 
loses its autonomy, in order to put pressure on China. 
Otherwise, China will keep taking advantage of Hong Kong as an 
international society but hollow out our liberal values. With 
such an assertive policy, it demonstrates that America will no 
longer tolerate totalitarianism.
    Hong Kong people will take every step with the last inch of 
our efforts to fight for democracy and freedom. Thomas 
Jefferson once said he would be ``forever against any form of 
tyranny.'' And I believe it is time for Americans to stand with 
Hong Kong.
    Gwong fuk heung gong, si dai gaap ming! [Liberate Hong 
Kong, revolution of our time!]
    Thank you.
    [Applause.]
    Chairman McGovern. Thank you.
    Ms. Hom, welcome.

STATEMENT OF SHARON HOM, EXECUTIVE DIRECTOR OF HUMAN RIGHTS IN 
 CHINA AND PROFESSOR OF LAW EMERITA AT CITY UNIVERSITY OF NEW 
                       YORK SCHOOL OF LAW

    Ms. Hom. Thank you.
    Chairman McGovern, Cochair Rubio, and members of the 
Commission, thank you for this opportunity. It's an honor for 
me to stand in solidarity with the frontline activists.
    I want to thank the Commission members for their critical 
support for the Hong Kong people and your leadership on the 
Hong Kong Human Rights and Democracy Act and the PROTECT Hong 
Kong Act.
    Over the past three months, the whole world has witnessed 
the historic David and Goliath standoff. And against all odds, 
the Hong Kong people are standing up to the powerful 
authoritarian regime in Beijing. In this historic battle they 
are not only fighting for the democratic future of 7.4 million 
Hong Kong people, but they're holding the regional and global 
frontline on preserving human dignity and rights for all 
people.
    As Congressman McGovern has already mentioned, the past 
summer of discontent is in fact part of years of ongoing 
resistance by the Hong Kong people against Beijing's 
encroachment on Hong Kong's autonomy, rights, and freedom. The 
mass demonstrations in the past have included resistance 
against security legislation, official brainwashing initiatives 
and the gutting of the promised genuine universal suffrage.
    After the clearance of the Occupy Central sites, democracy 
activists left a promise inscribed on the concrete sidewalks--
``We will return.'' They have kept that promise.
    Instead of Beijing's hope for movement fatigue, the 
protests supported by unflagging solidarity and broad, diverse 
participation of Hong Kong society are moving into the 15th 
week, pressing for now five nonnegotiable demands. The out-of-
control lawless actions of the Hong Kong police have provided 
mobilization fuel for Hong Kong people to ``add oil.''
    As Chairman Mao said, ``Wherever there is suppression, 
there will be resistance.'' And at the beginning of the 
Cultural Revolution he also said, ``Anyone who crushes the 
student movement will not have a good ending.''
    I want to talk about the rule of law just briefly because 
there are tensions that were baked into the ``one country, two 
systems'' framework, making one country, one system or one-and-
a-half systems perhaps an inevitable outcome.
    Taiwan's President Tsai Ing-wen's takeaway from the current 
political crisis hits the nail on the head. Not only is ``one 
country, two systems'' not a viable model for Taiwan, but the 
Hong Kong example proves that dictatorship and democracy cannot 
coexist.
    An independent functioning rule of law is essential, yet 
the Chinese state constitution and numerous high-level policy 
pronouncements legitimize the subordination of law to the 
leadership of the Party. The reintroduction of the Article 23 
legislation that's in the works in Hong Kong will inevitably 
carry imprints of the Party's concepts of national security.
    Second, the demand for complete loyalty to the Party guts 
the independence of key pillars of the rule of law, the legal 
profession, and the media. But Hong Kong is not the mainland--
yet. Despite efforts like the proposed Hong Kong national 
anthem law and proposed loyalty requirements, loyalty, pride, 
and love cannot be legislated. So it's not surprising that Hong 
Kong people, foreign business, and the international community 
have been alarmed.
    The outrageous and painful excessive violence and abuse of 
law by the police have already been extensively described. I 
will move to, then, talking about what's at stake in terms of 
universal values.
    China's aggressive activism at the U.N. is undermining 
international standards, weakening existing human rights 
mechanisms, and restricting the participation of independent 
civil society. This cuts off the Hong Kong people as well as 
human rights defenders on the mainland, and the Tibetan and 
Uyghur communities from the key international platforms that 
are available to press for accountability.
    With this--instead of the West's hoped-for convergence, 
China is not only not playing by the rules, it is vocally and 
persistently asserting a set of relativist criteria that it 
alone can apply and pushing for Chinese models of human rights, 
democracy, and development; that is, no human rights, no 
development, and no democracy. This rhetoric helps to 
intimidate, silence, and deflect from the accountability of the 
state.
    I want to point quickly to its role in blocking independent 
voices. China sits on the NGO Committee of the ECOSOC of the 
U.N. and, as a result, Chinese GONGOs do not face any 
objections such as the interruptions of Denise Ho's recent 
intervention at the Human Rights Council.
    The intervention last week by Pansy Ho, the representative 
of the Hong Kong Federation of Women, is illustrative. She not 
only defended the SAR government's handling of the protest, but 
she accused the Hong Kong protesters of ``child exploitation'' 
and more. Ho, Cochairman and Director of a Macau casino 
operation, is also a Standing Committee member of the Beijing 
Municipal Committee of the Chinese People's Consultative 
Conference.
    Because I am out of time, I want to take time to really 
jump ahead to the problem of a--in addition to the 
disinformation campaign, including the egregious use by China 
Daily on 9/11 of a photo depicting the destruction of the World 
Trade Towers to warn of terrorist attacks by Hong Kong 
protesters. Beijing is advancing a narrative of violence to 
frame the Hong Kong protest that is echoed uncritically by the 
international community.
    Within this framework, the Hong Kong police, protected in 
full tactical gear, armed with rubber bullets, guns, tear gas, 
pepper spray, and batons, wielding the coercive power of the 
state, are presented as one ``side'' of an escalating violence, 
clashes with civilian protesters. Hence, we hear calls for 
``both sides'' to de-escalate. But this deflects attention away 
from police accountability for its excessive use of force and 
its complicity with nonstate violence.
    Moreover, the narrow violence framing of the situation on 
the ground is intentionally erasing or marginalizing the 
proliferation of diverse, creative, and peaceful protests by 
the Hong Kong people, including by students in boycotts and by 
elderly citizens, silver-hair volunteers protecting the 
children's actions.
    Hong Kong people singing in the malls, in the metro 
stations, in neighborhood gatherings, shouting--the 10:00 p.m. 
shouts of slogans echoing throughout all the neighborhoods in 
Hong Kong--and forming human chains, creating Lennon walls.
    And last Friday was mid-autumn festival. And a small 
family-owned bakery in Sai Wan made mooncakes with protest 
slogans. And in typical humorous Hong Kong fashion, Hong 
Kongers are creating art. This is what is happening. Hong Kong 
people are practicing democracy and exercising their freedoms 
for as long as possible. Hong Kongers are making the road by 
walking it. That is the real revolution already underway on the 
ground.
    Thank you again, and I look forward to your questions.
    Chairman McGovern. Well, thank you very much.
    [Applause.]
    Chairman McGovern. Dr. Garrett, thank you for coming, and 
we welcome your testimony.

  STATEMENT OF DANIEL GARRETT, Ph.D., POLITICAL SCIENTIST AND 
AUTHOR OF ``COUNTER-HEGEMONIC RESISTANCE IN CHINA'S HONG KONG: 
            VISUALIZING PROTEST IN THE CITY'' (2014)

    Mr. Garrett. Thank you.
    Good morning, Chairmen McGovern and Rubio, distinguished 
members of the Commission. It is an honor and a privilege to 
talk with you regarding the Chinese Communist Party's erosion 
of ``one country, two systems'' in Hong Kong under the pretext 
of national security and its nexus to the extradition bill 
crisis.
    I will begin with five key observations backgrounding the 
current China-Hong Kong conflict and the ``one country, two 
systems'' crisis.
    First, today's ``one country, two systems'' is not the same 
as Deng Xiaoping's notion that proffered peaceful coexistence 
between the Communist and Hong Kong systems. Instead, it has 
been replaced by Xi Jinping's new era ``one country, two 
systems'' model embracing political struggle and enemy-friend 
binary and foregrounding Chinese national security as the 
paramount lens for governing the Special Administrative Region 
and implementing ``one country, two systems.'' Rather than a 
confidence-building mechanism ensuring peaceful coexistence, 
``one country, two systems'' under Xi Jinping is now intended 
to advance and safeguard China's sovereignty, security, and 
development interests.
    Second, this new era ``one country, two systems'' model is 
informed by Xi Jinping's broader national security concepts 
known as the ``three major dangers'' and ``national security 
with Chinese characteristics.'' The former situates Communist 
China at imminent risk of being invaded, toppled and separated, 
and its development, reform, and stability sabotaged, thereby 
leading to the derailing of China's rise, socialist 
modernization, and the ``one country, two systems'' policy. The 
latter dramatically broadens the notion of Chinese national 
security and radically expands the scope of Chinese 
authorities' prerogatives in administering ``one country, two 
systems.''
    Consequently, it significantly erodes the Special 
Administrative Region's high degree of autonomy, diminishes 
Hong Kongers' freedoms, and widens the threat to U.S. citizens 
and national interests in Hong Kong.
    Third, under Xi Jinping's new security paradigms and new 
era ``one country, two systems'' model, dissident Hong Kongers 
have been systematically enemified and securitized as mortal 
threats to the Party-state and banned or removed from positions 
of political power. Elections have been partially nullified, 
Hong Kongers disenfranchised and terrorized with real and 
rhetorical political violence. The promise of Hong Kong people 
ruling Hong Kong has been effectively replaced with a 
tyrannical ``rule of patriots.''
    Official declarations and Party-state media propagating 
Hong Konger enemy and Hong Kong threat security discourses have 
become ubiquitous, and Cultural Revolution-like mass line and 
United Front denunciation campaigns targeting democrats, 
localists and westernized Hong Kongers have swept the city 
repeatedly over the last seven years since Xi Jinping came to 
power.
    And fourth, since at least 2012, Hong Kong and ``one 
country, two systems'' have been perceived by Beijing as 
Communist China's weakest links in its resurgent totalitarian 
national security state. For Chinese authorities, both are at 
the forefront of ideological confrontation with the United 
States and the West, ``a new Cold War'' in their terms.
    By the end of 2014 and the Umbrella Movement, the struggle 
to rule Hong Kong was said to have matched the intensity 
surrounding the 1997 handover and that China now had to rethink 
how to rule the enclave.
    An influential adviser to senior Chinese authorities said 
that Hong Kong faced a society-wide ``long-term struggle'' to 
eradicate the Party-state's enemies in the city, a de facto 
cultural revolution that would involve at a minimum rectifying 
and sinicizing the judiciary, legislature, media, secondary 
schools, and universities.
    Chinese and Special Administrative Regions' furtive efforts 
to impose the Communists' legal, political, and social norms on 
Hong Kong via the extradition law and unprecedented violent 
suppression of protests have provoked a most severe crisis of 
``one country, two systems'' as Hong Kongers fight for their 
endangered freedom, identity, and way of life.
    This is not an anomaly. It is the sixth Chinese governance 
crisis involving ``one country, two systems'' since 2003 and 
the fifth since Xi Jinping took control of Hong Kong affairs.
    Each has an underlying Chinese national security nexus 
seeking to broaden Beijing's powers, its so-called 
comprehensive jurisdiction in Hong Kong, and to roll back Hong 
Kongers' high degree of autonomy, liberal freedoms and limited 
democracy by forcibly transforming Hong Kong into a Chinese 
Communist city while maintaining a veneer of ``no changes.''
    My next few observations will quickly touch upon the 
extradition law nexus to national security. Senior Chinese 
officials have described the extradition battle right now as a 
``battle of life and death'' and a ``battle to defend Hong 
Kong,'' a decisive war defending ``one country, two systems'' 
or jeopardizing it.
    Since Xi Jinping came to power, national security is now a 
mandatory obligation for people in the Hong Kong SAR. This was 
never written into the original Basic Law. This has been done 
post facto since 2012.
    Early in the extradition law saga, senior Chinese leaders 
have made extraordinary endorsements of the extradition law, 
expressing their full support. This included two Politburo 
Standing Committee members, Han Zheng and Wang Yang, the head 
of the State Council's Hong Kong and Macao Affairs Office, 
Zhang Xiaoming, and the chief of the Hong Kong SAR Liaison 
Office, Wang Zhimin.
    There are also indications that President Xi Jinping, as a 
member of the Central Coordination Group for Hong Kong and 
Macao Affairs, has weighed in. An influential United Front 
commentator in state media has also observed that if it were 
not for the full support of the central government, the 
legislation would have been aborted.
    Chief Executive Carrie Lam recently lamented in a leaked 
speech that since the issue had been elevated to one of 
national security and sovereignty, it had stripped her of any 
solutions or room for political maneuver.
    Another source explained that because the ELAB involved the 
mainland Special Administrative Region relationship with the 
central government and the implementation of the Basic Law, it 
was not a matter entirely within the autonomy of the Special 
Administrative Region government.
    This touches upon Hong Kongers' five demands as well as 
U.S. national security, and U.S. policy towards Hong Kong. 
Beijing's imposition of Communist legal and political and 
social national security norms on Hong Kong--constitute a 
violation of Article 5 of the Basic Law prohibiting the 
introduction of a socialist system in the territory.
    Moreover, the Party's application of its ``national 
security with Chinese characteristics'' mandate and loyalty 
expectations to the Special Administrative Region and its civil 
servants, effectively dissolves any difference between the 
Communist and Hong Kong systems, thereby posing a significant 
threat to U.S. interests related to the protection of sensitive 
technologies and adherence to export controls.
    My last two comments before I submit the rest of my 
testimony--the Hong Kong police force has been militarized and 
nationalized by the Chinese Communist Party, effectively 
becoming its ``little gun'' in the Special Administrative 
Region. Since the beginning of 2019, mainland police have been 
tasked by President Xi with ``preventing and countering color 
revolutions.''
    China's Public Security Minister subsequently ordered 
police to ``firmly fight to protect China's political 
security,'' and defend its national security and the leadership 
of the Communist Party.
    Earlier, Hong Kong police had received similar national 
security tasking from Vice Premier Han Zheng who in August 2018 
charged them to ``firmly and effectively'' safeguard China's 
national security and rule of law by ``accurately and 
comprehensively'' implementing ``one country, two systems.''
    Also, according to a vice chairman of the State Council's 
Chinese Association of Hong Kong and Macao Studies, the Hong 
Kong police were now ``on the forefront when it came to curbing 
Hong Kong independence,'' which meant their duty was not just 
to maintain public order, but to defend national security, too.
    Chief Executive Carrie Lam, in a leaked speech, also 
iterated that the Hong Kong police were the only solution that 
they currently possess in dealing with the extradition process. 
In no small way, the Hong Kong police have become the Special 
Administrative Region's people's armed police.
    One last comment--Chinese authorities have dedicated 
significant academic, legal, political, propaganda, and United 
Front resources to systematically manipulating and recasting 
Deng Xiaoping-era content and understandings of the Basic Law 
in ``one country, two systems'' to accommodate Xi Jinping's 
totalitarian national security mandates, logics and outlook.
    The Chinese Association of Hong Kong and Macao Studies, a 
shadowy political warfare-like think tank connected to the 
State Council's Hong Kong and Macao Affairs office, is one of 
these new subversive vehicles. Concomitantly, a network of 
Party-state constitutional and Basic Law experts and scholars, 
some attached to the National People's Congress Standing 
Committee's Hong Kong SAR Basic Law Committee have similarly 
contributed significantly to the erosion of ``one country, two 
systems'' policy, mobilized political bans, and informed the 
Central Authority's understanding of the actual situation in 
the region.
    All of these United Fronters are key players in the erosion 
of Hong Kong's freedom and democracy and enable state tyranny.
    Thank you.
    Chairman McGovern. Thank you very much.
    [Applause.]
    I will save my questions until the end. I am going to yield 
now to the Cochair, Senator Rubio.
    Cochairman Rubio. Thank you.
    And I will just ask one question because I know Members 
have places to go and I want them to get in on this.
    The key issue before us is autonomy. If you go back to 
2014, they took away universal suffrage for the election of the 
chief executive. In 2016 and 2017, they disqualified six 
democratic lawmakers from the council seats using a very 
controversial interpretation of the Hong Kong constitution. And 
then in 2019, this effort at the extradition bill.
    So my question to all the panelists is, How would you 
describe the state of Hong Kong autonomy today?
    Mr. Wong. During the last congressional hearing, I was 
strongly aware of how ``one country, two systems'' had eroded 
to be ``one country, one-and-a-half systems.'' But the recent 
political crisis--how the Hong Kong and Beijing governments 
have turned such a global city into a police state with more 
violence and even ``white terror'' I would describe now as the 
collapse of ``one country, two systems.'' We are facing death 
under the current constitutional framework.
    And I think now is also the time and the reason we should 
seek bipartisan support. Supporting Hong Kong's democratization 
should not be a matter of left or right. It should be a matter 
of right or wrong.
    Ms. Ho. In a more cultural and social context, there is 
immense fear among the people to speak their minds, which is a 
result of how the businesses and the government institutions 
have put pressure onto their employees or the people to keep 
their mouths shut, basically. This has a huge impact on the 
economy because without this freedom of speech, it's very 
difficult for the economy and also the society to thrive 
because in a sense, we are already in somewhat of a ``China 
city'' situation where people would fear for their safety if 
they spoke out about their political stance.
    Just for an example, there has been an unofficial Hong Kong 
anthem recently that has been written by an anonymous 
songwriter. And they have opted to keep their anonymity because 
if they had shown their face, then most likely they would have 
been arrested or prosecuted on claims of national threats--
national security threats. So that's basically the sentiment of 
the Hong Kong people.
    Mr. Cheung. Last year the USCC (U.S.-China Economic and 
Security Review Commission) published a report with concerns 
that Hong Kong is becoming more like any other Chinese city, 
and that means that our autonomy is already gone, and even the 
USCC has issued a report claiming that the autonomy of Hong 
Kong is already in danger.
    In the U.K. when I met some politicians, I would tell them 
that the Chinese government already abridged the Sino-British 
Joint Declaration. And that is why I would say the autonomy of 
Hong Kong is already dead, and that's why we urge the U.S. 
Government and other free-world countries to try to help Hong 
Kong by, for instance, passing the Human Rights and Democracy 
Act.
    And you can pass the Global Magnitsky Act in other 
countries, urge your allies to pass them to let other free-
world countries stand with Hong Kong.
    Ms. Hom. The economy question, Senator Rubio, is extremely 
important because post-1989, that was a decision made by the 
Communist Party: We're going to go forth, back into market and 
economic reforms, but absolutely no political reforms.
    This has been echoed by the chief executive. When she 
endlessly has been having these kinds of ridiculous press 
conferences where she says nothing, one thing she does say is: 
We need to restore the economy; we need to restore economic 
order--completely ignoring the structural/political issues that 
are causing a lot of the fundamental unrest.
    So the other point I wanted to add is that the Hong Kong 
economy was not delivering the goods to most of the Hong Kong 
people. The tycoons, and probably the triads, were doing quite 
well, but not the majority of Hong Kong people. Hence, we have 
the housing problem, the education problem, the problem of the 
elderly with inadequate care, and so forth, and health care.
    So the economy was not delivering, and I think what needs 
to happen--yes, there should be a renewal of the economy. But 
it's going to be an economy that works for all the people.
    If I could pick up quickly on Sunny's reference to 
autonomy. Autonomy, what it means for the Communist Party is--
we only need to look at the so-called autonomous regions in 
Tibet and Xinjiang.
    What autonomy means is no culture, no language, no history, 
no right to believe or practice your faith under the 
sinicization of religion, which is an oxymoron. And their 
understanding of autonomy even extends past this life. As you 
know, the Party is trying to now control reincarnation.
    So they are also trying to impose a notion of Chineseness. 
What kind of Chineseness? Well, Xi Jinping's notion of 
Chineseness under the Chinese dream and what is Chinese. But 
Hong Kongers are quite complex as a history, and language, and 
culture. And I think Hong Kongers are negotiating what it means 
to be a Hong Konger, whether it includes being a Chinese. Does 
it mean that?
    And I think that's what it means to be free, the right to 
decide and determine in this complex way, what does it mean to 
be who we are? And that is absolutely antithetical to the DNA 
of the Communist Party and its notion of autonomy because it 
does not exist.
    Mr. Garrett. Thank you.
    The ``rule of patriots'' in Hong Kong basically means that 
there is no substantive high degree of autonomy. Basically, 
under Xi Jinping, a democratic centralism is practiced. They 
may solicit input from the Hong Kong government, but once 
Beijing makes a decision, the SAR government has to implement 
it.
    Building on Dr. Hom's comments here, national identity is 
now a national security issue for the Communist Party and Hong 
Kong. They believe that one of the major problems--this goes 
back to 2007 when Hu Jintao told the Hong Kong government on 
the tenth anniversary that the SAR government had to create a 
new generation of Hong Kongers who loved ``one country, two 
systems,'' who loved China, that the recovery of Hong Kong 
would not be complete until Hong Kongers identified with China, 
with Communist China.
    This also touches on Xi Jinping's Chinese Communist 
identity politics, which is attempting to rehabilitate the 
spoiled image of the Communist Party and the spoiled image of 
being a Communist. This is why we start seeing laws protecting 
the national anthem, martyrs and so forth.
    So in Hong Kong, which has always been historically anti-
Communist to a large degree, there is this effort related to 
the extradition campaign to eradicate so-called anti-Communist 
sentiment, and anti-Communist forces.
    With regard to autonomy, because the Belt and Road 
Initiative and the Greater Bay Area Initiative are key to 
China's development program right now, and because the central 
government believes that the major impediment to Hong Kong 
signing on and strongly supporting these programs has been the 
two systems, has been its democracy, has been its freedoms, it 
is now looking to restrict those in order to force the SAR 
government to support these programs.
    So, once again in closing, I would say there is no 
substantive autonomy. Thank you.
    Chairman McGovern. Thank you.
    Mr. Suozzi.
    Representative Suozzi. Well, thank you, Mr. Chairman and 
Cochairman Rubio, for holding this hearing. We appreciate you 
bringing this together. Thank you, Representative Smith--
Ranking Member Smith--for the work that you've done on this 
issue for so many years.
    Thank you to the witnesses. We are so grateful to all of 
you for the information you've given us here today and for 
shining a light on this. I know we sit here in this chamber. 
It's very calm. It's very safe. It's very sterile, and you're 
bringing to life what's going on in real people's lives right 
now, when you talk about a 12-year-old being arrested. We hear 
the idea that someone gets pepper spray sprayed into their 
wound, when we hear about people's heads being smashed into the 
concrete and getting concussions. And when we hear about the 
rubber bullets and the tear gas and everything else. And people 
living in fear on a regular basis for standing up, for speaking 
their minds.
    Here in the United States of America, we have believed 
since Nixon went to China that the more that China was exposed 
to our way of life in the United States and to the West, that 
they would become more like us. We always thought they'd 
become--if they saw capitalism, if they saw democracy, sooner 
or later, they'd become more and more like us. And we now know 
that that is not at all the case.
    Whether the hearings that we have held about the Uyghurs, 
or the hearings about Tibet, or now about Hong Kong, we know 
that they are pulling--well, you know we talk about Hong Kong 
as being ``one country, two systems.'' It's really one world 
with two models, and they are meeting each other in Hong Kong 
right now.
    And the question is, which model is going to win? Is it 
going to be the model that we promote here in the United States 
with the rule of law and with freedom of expression, and with 
democracy, or is it going to be authoritarianism, and the 
powerful forces of the government doing whatever they want, 
whatever way they want? They are meeting right there, and you 
are right in the middle of that challenge right now.
    So we're so grateful to all of you. I am concerned about 
the timing of things right now. We're pushing to get this bill 
passed here in the Congress. But right now, we've got--I think 
you talked about it, Joshua--National Day in China is coming up 
on October 1st.
    And I'm concerned about what mainland China's actions are 
going to be in relation to that and whether there will be more 
violence as a result as they try to flex their authority. And 
I'd like to hear each of you talk about that.
    And the second thing I am concerned about is the local 
elections coming up in November. I want to hear from you about 
whether you believe there is an opportunity here for the people 
of Hong Kong to express themselves, or is mainland China trying 
to subvert that by not permitting certain candidates to run and 
not giving them permission to run, which is a foreign idea to 
us here in the United States of America, but so important to 
all of you.
    And the third thing is, let's say a magic wand was all of a 
sudden waved. And mainland China said, we are going to support 
the idea of there being elections in the future in Hong Kong 
for the leader. Instead of Carrie Lam being appointed, there 
will be an election by the people.
    That couldn't happen right away. It would take some time. I 
would like to hear what you think about the timing. So let's 
try and keep it brief. I know I talked a lot myself and used up 
a lot of time.
    But please--October 1st, election day and how impactful 
that can be, and what the timing would be if they were to 
agree, as one of the five demands, that there would be 
universal suffrage?
    So Joshua, you go first, please.
    Mr. Wong. Troops were already moved to the border a few 
weeks ago, a tactic the Beijing authorities have used to 
generate a chilling effect. We are strongly aware that Carrie 
Lam, the leader of Hong Kong, openly declared that she is 
considering imposing an ``emergency ordinance'' in Hong Kong to 
stop the protests. An ``emergency ordinance'' is the colonial-
era law similar to martial law. It authorizes the chief 
executive of Hong Kong to shut down the internet, cut public 
transport, and even cut air traffic.
    We all know that the political crisis must be solved by 
political system reform. That's the reason we urge Beijing not 
to handpick the leader. Please let us enjoy the right of free 
elections.
    They are considering using this kind of martial law before 
or after Chinese National Day. But I think that's not the only 
reason people defending human rights should care about it. Even 
businessmen that focus on enjoying economic freedom and an open 
business environment should be aware of how Hong Kong is not 
only on the brink of bloodshed, it is also under the threat of 
martial law and ``white terror.''
    So I really hope to have bipartisan support to pass the 
Hong Kong Human Rights and Democracy Act.
    After explaining what is happening before or after Chinese 
National Day, the upcoming district council elections are 
scheduled on the 24th of November. With the track record of how 
Beijing unseated democratically elected lawmakers, including 
Nathan Law and Agnes Chow, the ones who hoped to run for office 
early last year, we strongly expect and are aware that Beijing 
will still keep its hardline policy toward Hong Kong and block 
or buy youngsters to run for office.
    As one who has engaged in street activism, I also hope the 
voice of the young generation can be heard inside the 
institution. And at the same time, I will also make sure that 
the announcement will be in late September or early October as 
to whether I will run for office on the district council or 
not.
    If the Beijing government bans me from running for office, 
they must pay the price in Hong Kong protests and also in the 
international community.
    Representative Suozzi. So in Hong Kong, there are many pan-
democrats and many pro-Beijing folks? Is there a chance that 
that could change, that that dynamic could change because of 
the protests that are going on?
    Mr. Wong. In the district council, we have 452 seats, and 
more than 75 percent of the seats are mostly in the pro-Beijing 
camp. And on the 24th of November, we hope the pro-democratic 
camp can get a good turnout to show the power of the people.
    Representative Suozzi. I just want to emphasize the timing 
coming up. October 1 and November 24 are big days that could 
have a big impact on what Beijing is doing and what is 
happening from the people. And it could be a flashpoint--we 
have to be very conscious of that.
    Denise, do you want to go ahead?
    Ms. Ho. Yes, personally, I don't feel that October 1st 
would be something to stop the people from going onto the 
streets as the sentiment is still very, very determined and 
very strong among all walks of life. And so this fight has been 
able to sustain itself because of this sort of creativity and 
flexibility of the people. And I believe that without a sincere 
answer or solution from the government, the people won't be 
backing down.
    And as to how the Communist government might suppress us on 
even an escalating level, personally I feel that there are 
probably already Chinese police among the Hong Kong police 
force. There have been several occasions where the police 
commanders have been heard speaking Mandarin to their officers. 
So on this note, I believe that Hong Kong people are already 
facing this sort of infiltration of the Chinese police into the 
Hong Kong police force.
    Representative Suozzi. Are you concerned about it 
escalating around National Day?
    Ms. Ho. Well, I mean it's already on a daily basis--this 
sort of escalation where the police are patrolling the streets. 
People are arrested just for being young, really. So, I think 
we are already at that stage. That is why we call for the U.S. 
Congress and also the international community to monitor this 
regime--that is, the Xi Jinping regime--because we in Hong Kong 
are protecting these values that we all believe in. And if we 
fail, who knows what would happen to the world and to the next 
stage.
    Representative Suozzi. Thank you.
    Sunny.
    Mr. Cheung. Thank you for the question.
    Personally, I think on National Day, actually, there will 
be more escalation of the movement, because I know that the 
Chinese authorities must want the Hong Kong people to respect 
National Day. But on the other hand, Hong Kong protesters, they 
know that it is important to have some symbolic movement on 
National Day. And that is why there will be some escalation of 
the movement.
    But I doubt if the Chinese government will dare to use the 
emergency law or send out the PLA to Hong Kong because 
currently China relies on Hong Kong very much--much foreign 
investment in China is still coming from Hong Kong. And that is 
why if they deploy the PLA or try to use emergency laws to 
crack down on Hong Kong protesters, I think this is not very 
promising for Hong Kong people nor for the Beijing government. 
The Beijing government will not do something like that, I feel.
    Representative Suozzi. Sharon, if you could talk about the 
elections a little bit also.
    Ms. Hom. I think a couple of things. One is really 
important that has not been raised.
    In addition to the question of infiltration and use of 
decoys, last August 2018, the People's Daily announced the 
planned establishment of a Greater Bay Area police cooperation 
mechanism among Guangdong, Hong Kong, and Macao. Related to and 
part of this mechanism, the Guangdong public security 
department conducted training of key Hong Kong police personnel 
in Guangdong. This has been followed up on.
    And one of the questions I think is important to press 
either through the U.N. systems is to raise the question, 
``Really? What kind of training?'' I am pretty sure that the 
training did not include international standards on appropriate 
use of force.
    And the special procedures of the U.N. special experts--
just last week they issued a joint statement about concern and 
also raising these questions of the need to make the police, 
the Hong Kong police--there are very sophisticated detailed 
standards on the use of force: that you are supposed to 
deescalate, not escalate; you're supposed to reduce harm, not 
create harm; and that there is a whole range of police crowd-
control mechanisms that they are supposed to choose according 
to proportionality. So I wanted to just emphasize that.
    On the timing of National Day, I think we can't lose sight 
of the fact that Xi Jinping is not as powerful as we may think 
or as he would like us to think, and that it is true that with 
the consolidation of power, etc. and his ``no term limit''--now 
both of the key positions--the fact is, what you're getting to 
see, the tea leaves, if you look a little more closely, is that 
the Party leaders inside are not happy with the way that Xi 
Jinping has ``handled'' the Hong Kong situation.
    Xi Jinping is actually in a lose-lose situation. It's a no-
win situation. He's stuck between the hardliners--who I am 
pretty much concerned about--they are pushing for military 
force, because he has already shown he's failed.
    Deng Xiaoping took two months, shut down the whole 89 
student and the democracy and free trade union movement. We are 
now in the third month, so under the Party's timeframe on how 
you ``handle'' these mass disputes, Xi has failed. So he's in a 
pretty dicey situation.
    October 1st. This is not just any anniversary. This is the 
70th anniversary. So they have made a year's worth of enormous 
investment in a film festival, special documentaries made. They 
have said that no Chinese entertainment in this Chinese TV 
recently. They have to show the history, etc. There's an 
enormous amount of investment to keep the legitimacy and have a 
wonderful birthday celebration for the country.
    So he's stuck. It can't look bad. On the other hand, he's 
stuck between the hardliners and the others who are saying, 
``There's got to be a way to handle this. Not the way you're 
doing it because now we look terrible. Now we look like the 
thugs we are.''
    And so I think that that is--what we should be monitoring 
are the messages. And just last week, a very strange editorial 
appeared in Qiushi, which as you know is one of the major party 
organs. And in Qiushi, the editorial pointed out something very 
strange. It said that whether a country's political--this is 
our translation, sorry--``Whether a country's political system 
is democratic and effective, one needs to mainly look at 
whether the country's leadership ranks can rotate or alternate 
in accordance with the law in an orderly fashion.''
    What does this mean? We don't know. Because just the fact 
that the constitution eliminated term limits for the top office 
doesn't mean he'll stay.
    So I think there are some other wild cards that are on the 
table that we need to keep an eye on in terms of how the U.S. 
Government can think about the options and policy options. Of 
course, we support the legislative initiatives--this is very 
important. But I think there's something much bigger underway 
in terms of the politics in Beijing that will absolutely have 
an impact on the decisions that will be made pre-October 1st 
and after.
    Representative Suozzi. Thank you.
    Chairman McGovern. All right. Well, why don't we go to 
Senator Young.
    Senator Young. I just have a statement to make and I regret 
I am going to have to leave after this.
    But I wanted to say thank you, Mr. Wong, thank you, Ms. Ho, 
for your courage, for your resolve, for your leadership in the 
face of great trial and tribulation. Thank you for the example 
you are setting for the world and for all that you're doing for 
freedom-loving people.
    I want to send a message to Beijing's Communists. And my 
message is, you cannot have it both ways. You cannot seek to 
trade with the wealthy nations of the world and rip off our 
intellectual property. You cannot seek to be a trusted 
international development partner and engage in predatory 
economic practices through your Belt and Road Initiative, and 
you cannot reap all the economic benefits, that you enjoy under 
American law, of Hong Kong's special status while undermining 
the rights of Hong Kongers, while eradicating their political 
identity. We cannot allow this to happen.
    So I look forward to working with you. I will be signing on 
to the legislation offered by the cochairman of this committee 
as you have encouraged us to do. And I will be seeking other 
opportunities, perhaps in the immigration area, to provide 
further relief to Hong Kongers who do not want to be a part of 
this predatory regime that calls itself Communist, but in fact 
is really fascist in many respects. And we must continue to 
press it to change its behavior.
    Thank you so much for your presence here.
    Chairman McGovern. Thank you.
    Mr. Smith.
    Representative Smith. Thank you, Mr. Chairman.
    There is no disputing the fact that under Xi Jinping, human 
rights abuses have seriously worsened. You name the area--from 
torture, religious freedom.
    Ms. Hom, you talked about the sinicization of religions 
where every single religion or faith, including the Falun Gong, 
Christians, Tibetan Buddhists, the Uyghurs, all have to comport 
with the Communist model or else face severe torture, 
incarceration, and even death. It is incredible what he is 
doing and his regime and of course, all of that will be imposed 
on Hong Kong unless there is a reversal of this trend.
    On human trafficking, the Trump Administration has 
designated China as a Tier 3 country because of sex and labor 
trafficking. It has gotten seriously worse over the last 
several years.
    So every place you look, it is worse. Xi Jinping is 
bringing dishonor to himself and to his government with his 
abuse of people. I think we need to say that loud and clear. 
The great father of Chinese democracy, Wei Jingsheng, once 
said--and I had him at a hearing and I actually met him in 
Beijing when he was let out briefly to get Olympics 2000, which 
the Chinese government didn't get. So they rearrested him and 
beat him almost senseless.
    Well, he said, you know, you Westerners don't get it. You 
do coddle dictatorship. You do allow and enable by your 
weakness. You've got to look a dictatorship in the eye and say, 
``We're not kidding.'' Conditionality of human rights either 
occurs or we're not going to be trading with you and allowing 
you to use the economic power that you've got to further 
incarcerate and further repress.
    The lessons of the Soviet Union were not learned when it 
came to China. I got elected in 1981. My first trip was to 
Moscow and Leningrad on behalf of Soviet Jews. And frankly, the 
Reagan Administration stood up strongly to the powers in Moscow 
and said, ``Human rights matter.''
    And it did matter and thankfully we saw a change. Of 
course, under Putin it's still bad, but not as bad as it was 
during those years. I raise all of that because when it comes 
to China, we have not learned the lessons of conditionality 
with regard to human rights. I say that with sadness, with 
great sadness.
    When we did the Comprehensive Anti-Apartheid Act in 1986, 
not only did I vote for it, but we had a world coalition saying 
this egregious behavior will not be tolerated. Therefore, we 
are going to hold you to account and no longer provide 
munitions--that was section 317, I believe, of that bill--which 
Mr. McGovern's bill (the PROTECT Hong Kong Act), which I have 
cosponsored, would seek to do with the police. Mr. Garrett, you 
might want to speak to that.
    But we've got to be serious about all of this. And I just 
bring this up because it deeply concerns me that we just keep 
not learning the lessons.
    Nancy Pelosi, Frank Wolf, David Bonior, and I all opposed 
MFN for China after Tiananmen Square. George Herbert Walker 
Bush thought he could manage the whole thing. He was our 
Ambassador to China. And as it turned out, we managed it 
extraordinarily poorly.
    Bill Clinton came in and said, ``Let's link human rights 
with MFN trade.'' One year later, he delinked it. And the 
lesson learned by the dictatorship in Beijing was--profits 
trump human rights.
    And I have tried for five years to get my bill passed, our 
bill. It's a collective bill, House and Senate, bipartisan. And 
the same people who said just trade more and somehow China will 
matriculate from dictatorship to democracy have been proven 
wrong again.
    And if it wasn't for the great people of Hong Kong standing 
up so powerfully at great loss to their liberty, going to 
prison, being arrested, being harassed, and even tortured and 
killed--this Congress needs to wake up and say, finally, at 
long last, we're going to put conditionality on this.
    So if you want to speak to that, I would appreciate it. 
There have been 1,000 arrests since the activities occurred. 
What is the status of the prosecutions?
    Joshua, we know your case. But there are many other cases 
that are in obscurity right now. What has happened to those 
individuals? And just generally on the police--are the police 
largely newer recruits who are more ideologically aligned with 
Beijing? Or are they the old hands who have just now become 
even more repressive than they had been in the past?
    If you could speak to those things, I would appreciate it.
    Mr. Wong. With more than 1,500 Hong Kongers arrested in the 
past three months, more than 200 of them have been prosecuted 
already. I am among them and we are also aware of activists who 
were already detained inside prison before any trial started. 
That is the ``sugar-coated'' rule of law and the Hong Kong-
style legal system under the pressure of Beijing.
    I've been arrested and prosecuted with the charge of 
unauthorized assembly. Even after the experience of being 
jailed for around 120 days, the price I paid is ``a piece of 
cake,'' because lots of our teammates--from my understanding, 
more than 100 of them face riot charges and may be locked up in 
prison for more than 10 years.
    Five years ago during the Umbrella Movement, we were just 
arrested for unlawful assembly and would face maybe months or 
one to two years in jail. But now youngsters at the age of 15, 
who should be enjoying their summer holiday, who should be 
spending time on summer vacation with their friends and family 
but are now being prosecuted and facing trial, and maybe at 15 
or 16--golden years for them--might be already locked up in 
prison.
    And we have activist Edward Leung, who fights for Hong 
Kong's freedom, already being locked up in prison. He faces six 
years in prison.
    Massive arrests and prosecution seem to be Beijing's tactic 
to silence our voice. And yet our movement keeps its momentum--
just like two weeks ago, more than 200,000 Hong Kongers marched 
to the U.S. Consulate in Hong Kong and urged the United States 
to pass the bill and show global solidarity.
    We are also aware that the cabinet of chief executives, 
which means members from the Executive Council, last week 
openly declared that Hong Kong's chief executive enjoys the 
right to appoint any secret police. ``Secret police'' is not a 
term created by activists or created by journalists. It is the 
term written in the current ordinance and regulation. It could 
authorize the Hong Kong chief executive to appoint anyone, 
whether they live in Hong Kong or mainland China, and 
regardless of their background.
    They can be appointed to the Hong Kong police force and 
continue to use life-threatening force to crack down on our 
protests. That is the ``white terror'' and why all of us 
describe Hong Kong as a police state.
    Ms. Ho. I would like to add that among those who have been 
arrested and charged with riot, a lot of them have been on the 
sites, but they have not been on the front lines. They were 
just near the front lines, and some of them have been first 
aiders who have been helping other people get up and get away 
from the sites, social workers and, of course, the legislators 
who have been arrested. They were not charged with riot, but 
that is something that is shocking to the Hong Kong people--to 
have these legislators arrested.
    And so on top of that, I would like to add that the 
situation, that is, in Hong Kong, is spreading into the 
international world where this Communist tactic of silencing 
people with fear and with money, it's everywhere, really. It's 
not only in Hong Kong.
    As I said just now, there have been incidents in Australia 
where government institutions have kept away from me and other 
Chinese artists for fear of being associated with us, and in 
Canada where Hong Kong activists have been banned from a gay 
pride event because of security concerns. So they say.
    The fact is that the Communist government, they use this 
sort of--the money where the brands and businesses, they would 
be adding this sort of suppression onto their employees and 
other people. And then everyone would be just silencing 
themselves.
    So this also is causing a lot of fear among Hong Kongers 
and that is why this movement has been largely anonymous 
because we know for a fact that if we show our faces, then we 
would be arrested and prosecuted for riot or unlawful assembly.
    Mr. Cheung. I would like to supplement what Denise has just 
mentioned about this problematic law. Actually, the Human 
Rights Council of the United Nations has decried the public 
order ordinance, which is a colonial law in Hong Kong. The 
Department of Justice and the police force in Hong Kong can use 
this public order ordinance to prosecute those protesters in a 
very easy way. And when they do, then it is easy for the 
protestors to be assumed guilty. And that's why this law should 
be abolished by the government. And we urge that the 
international community should also be aware of this law.
    And apart from that, I had a personal experience--I had a 
tutorial kid. And he was arrested in one of the political 
disputes around the confrontation during the movement. When 
that kid was arrested, he immediately asked the police officer 
to--asked him can he call his lawyer. And the police officer 
told him, ``Of course you can't . . . because I want to torture 
you. Because I want to make you suffer.''
    These police officers, they said something like that to a 
kid who is just under 18. And this is a real situation in Hong 
Kong. That's why many people are very frustrated and angry 
about the police brutality problem.
    Ms. Hom. The prosecutions are related to the application of 
the public order ordinance that results in an unlawful 
assembly. So the ``notice of no objection'' process contributes 
to that, that's the tool. Hong Kongers then face this 
ridiculous situation where they have to file an application for 
a notice of no objection to a peaceful assembly that is to 
protest police violence.
    So you have the police denying the notice of no objection, 
therefore making it an unlawful assembly for an assembly that 
is to protest police violence. So that's really important that 
through this kind of misuse of that process, they are really 
violating international standards for peaceful assembly by 
imposing this kind of unduly restrictive administrative 
procedure.
    The police, under this procedure, then can act as both 
enforcement, prosecutor--because they are naming this--saying 
this is a riot. But a determination of ``riot'' requires a 
legal process. It's for the court to look at the evidence. It's 
for the court to see if this person engaged in illegal behavior 
and alleged violence, etc.
    So right now, the police are acting as enforcement, 
prosecution, and executioner of orders. And that is part of the 
problem; on top of that, we have concerns with politicized 
decision-making by the prosecution.
    This was also noted by independent U.N. experts several--
maybe two years ago saying that they were concerned about a 
potential pattern of politicized decisions that were being made 
on whom to prosecute and whom to pursue.
    Mr. Garrett. There is an issue regarding whether Hong 
Kongers can get a fair trial in Hong Kong in the future. And a 
large reason for this is the heavy amount of propaganda coming 
from the Central People's government, whether it is Chinese 
state media organizations or it is so-called mainstream media 
organizations who quote them and cite them ubiquitously.
    So when the Chinese regime characterizes demonstrators as 
separatists, extremists, terrorists, this is already setting an 
expectation for the Hong Kong judiciary to act, as well as law 
enforcement, not only in the charges that they decide to lay 
against a protester, but also the sentences that they're trying 
to give people.
    The pro-Beijing United Front Movement in Hong Kong has been 
very aggressive in attacking judges that it feels have been too 
lenient with protesters. And this goes back a number of years. 
They derogatorily refer to them as ``yellow judges,'' referring 
to the yellow ribbons from the Umbrella Revolution.
    There have been threats made by pro-Beijing people toward 
the judiciary, in general, that have gone unprosecuted. So this 
is a real issue.
    Also, because of the 2016 Oathgate intervention by the 
National People's Congress, there's an expectation that Hong 
Kong judges will uphold the national security of the Communist 
Party. So if you render a decision inconsistent with that 
national security expectation, you may be vulnerable to 
disqualification. Now this has not happened, but this is the 
logic that is being used to disqualify candidates of the 
district council, the Legislative Council elections, and so 
forth.
    Regarding the police--touching on Sharon's comments 
earlier--the Hong Kong police also went to Xinjiang as 
observers to learn how they handle ``mass incidents.'' There 
was very little visibility on that.
    We know that the PLA in Hong Kong, there is some 
interaction with them. The Hong Kong PLA garrison commander has 
observed some of their passing out parades and so forth.
    But one of the most dangerous and I think terrifying things 
for most Hong Kongers is that the Hong Kong police now act 
without wearing uniforms, without any type of identification. 
You can be grabbed off the street. You can be grabbed from your 
home. Nobody shows you any type of formal identification. You 
don't know if they are a police officer. You don't know if they 
are a triad, a patriotic vigilante, or if somebody from the 
mainland is kidnapping you. So this is a major issue.
    Now, as for the Communist Party, they view law enforcement 
as their concept of the rule of law or rule by law. And so the 
support--basically, the Hong Kong police have been given carte 
blanche to do whatever they want. And as Carrie Lam said 
before, the Hong Kong police are seen as the last line in this. 
So the policing issue is a major problem in Hong Kong.
    Chairman McGovern. Senator King.
    Senator King. Mr. Chairman, Representative McAdams was here 
long before I arrived. So I'll defer to him.
    Chairman McGovern. Representative McAdams, go ahead.
    Representative McAdams. Thank you. Thank you, Senator.
    Today marks a significant day in United States history. It 
was 232 years ago on this very day that our forefathers signed 
the United States Constitution. So it's, I think, with some 
significance that we welcome you here today to the United 
States Congress, the House and the Senate, to share your 
testimony and as you share in this struggle, this global 
struggle of humanity for freedom and independence.
    That Constitution signed 232 years ago today created a 
federal system, one with a Senate and a House, that oftentimes 
by design there's some tension between these two bodies. It 
created three branches of government--an executive branch, a 
legislative branch, and a judicial branch.
    An outgrowth of that system is our two political parties 
that oftentimes also struggle for our ideas to move forward. It 
created a federal system with now 50 states that also--there's 
a healthy tension, sometimes unhealthy, but there is a tension 
within that system as we struggle to move forward ideas and the 
rule of law. One thing that I think is important to note, 
though, is that we all stand together. This is a legislative 
and executive branch, that we stand together, Republicans and 
Democrats, in support of the struggle for human rights, for the 
rule of law, and for freedom for Hong Kong.
    And I would echo the sentiments that have been expressed 
earlier, that we cannot have it both ways. We cannot have the 
rule of law and human rights and the struggle for freedom with 
the actions that we see that are undermining the very nature of 
that system in Hong Kong today. And so it's incredibly 
troubling to me to see what we have seen play out over the last 
six months.
    And forecasting into the future, some of the efforts to 
undermine the sanctuaries of democracy and human rights that we 
see right now--some of those sanctuaries and foundations of 
freedom as we've seen in the United States and we also see in 
Hong Kong, the freedom of democracy and government through 
elections, the freedom of academia and for ideas to thrive in 
an academic system, economic freedom for individuals, and 
economic competition, and the rule of law where every 
individual is treated fairly and equally under the law, and 
human rights--are protected.
    So my concern and what I would love for you to comment on 
is where we go from here and with some very troubling signs on 
the horizon.
    So I would like you to comment on, Mr. Wong--let me commend 
all of you who are examples and the founders of freedom whose 
names I hope will be remembered 232 years from now in the 
struggle for freedom in Hong Kong. But Mr. Wong, Ms. Ho, Mr. 
Cheung, and Ms. Hom, thank you for your efforts and struggles 
for Hong Kong.
    I would love for you to comment on--first of all, Mr. Wong, 
the struggle in elections--for individuals to step forward. 
Over the last several years, the government has--as you 
referenced--has repeatedly rejected the nomination of 
candidates running for political office who have supported or 
been affiliated with self-determination. What challenges does 
that impose today and going forward for individuals who are 
willing to put themselves and their names forward?
    Taking that same look at the foundations of freedom of 
thought--to academia--what support do academic institutions 
give to students as they raise their voices in support of 
intellectual freedom and human rights, and also to the free 
economy, as businesses--Ms. Ho, as I believe you spoke about--
some of the concerns with Cathay Pacific and efforts that 
undermine individuality and freedom of thought in the 
marketplace of ideas and in the workplace. What is happening in 
these respective spheres and foundations of democracy and how 
can we best support freedom of thought?
    Mr. Wong. Just let me explain what is on the mind of the 
young generation. In the past few years after the end of the 
Umbrella Movement, lots of youngsters, even if they uphold 
different kinds of political belief, they still have the 
awareness and consensus. They hope their words can be heard 
inside this institution.
    Apart from taking to the streets joining protests, it is 
also significant for us to push forward political system/
election reform. Unfortunately, with all the political 
censorship, even I am considering running for office. And I 
will make a formal announcement in late September or early 
October.
    I am still aware of how Beijing hopes to bar this whole 
generation of youngsters from entering the institution. But we 
are lucky that with the determination and courage of Hong 
Kongers, they just turned a whole generation of youngsters into 
dissidents, and not just the baby boomers. Even Gen X and 
millennials have joined the fight with solidarity and unity.
    So I will just make it clear. Hong Kong is not only 
suffering from a political crisis. We are also suffering from a 
humanitarian crisis, especially how the Hong Kong police force 
just hardline suppresses us, whether it be the sexual 
harassment experienced by a young woman arrested, or an injured 
protester pulled down from the ambulance by riot police 
directly. Or how an arrested person--it is really difficult for 
them--being refused the right to contact a lawyer or even seek 
any kind of medical treatment.
    I think this kind of hardline suppression will just turn 
the whole of my generation and the generation younger than me, 
whether on the street or getting inside an institution, we will 
keep on together with this uphill battle and we hope that the 
U.S. Congress can stand with Hong Kong.
    Ms. Ho. Yes, on the cultural side and on the freedom-of-
thought side of things, 90 percent of it, probably, has been 
eroded--all of ``show business'' has been--is in the control of 
the Communist government. I, along with just a very small 
handful of actors and singers, have spoken up for these 
movements, but the rest of the celebrities have kept their 
silence.
    And they have been forced to participate in these support 
campaigns on social media, ``Oh, I support the Hong Kong 
police,'' or ``I am a protector of the national flag'' 
campaigns where they have to voice their support for the 
Chinese government or else they would be prosecuted or 
censored--people like us.
    Businesses, of course, have also been pressured into 
obstructing these freedoms of Hong Kongers, namely the MTR, our 
subway system; they have closed down stations in times of 
protest, thereby making it very easy for the police to arrest 
people and also very difficult for people to leave the sites. 
That was a result--I believe there was an article in the 
People's Daily, the state newspaper, where they have named the 
MTR Corporation, saying that they have been helping the people.
    I do think that in a free society, these businesses and 
corporations have an obligation, a social responsibility to 
keep up this kind of integrity, at least to safeguard our 
freedoms, which they have failed to do. And like, right now, we 
do not have many solutions to these problems because, aside 
from the people protesting, these businesses are exercising 
their suppression onto the people.
    We hope that the Hong Kong Human Rights and Democracy Act 
with these sanctions on government officials--and hopefully 
this could extend to these corporations who have been violating 
the Basic Law, the freedom of speech--hopefully this would be 
monitoring the businesses and also, of course, the government 
institutions in Hong Kong.
    Mr. Cheung. From the academic perspective, I believe we 
need to have a correct understanding of China first. In 1989 
Professor Fukuyama famously declared ``the end of history'' 
because he believed democracy was the ultimate form of human 
government and that the ideology of Communism or of terrorism 
would have no place in the coming world.
    But apparently, two decades after he gave his speech, he 
was wrong. And we cannot keep using the mindset of the old 
times that we should continue the engagement policy toward 
China. We should abandon the engagement policy and try to use a 
more assertive way to try to understand China.
    Because on campuses we know that the Chinese government 
tried to establish a lot of Confucius Institutes around the 
world. And with those Confucius Institutes they are creating 
propaganda--trying to influence the youth in other countries--
including your kids.
    This is not reasonable. Canada's government last year 
started to shut down some of the Confucius Institutes. And I 
believe this is a global fight because when we uphold academic 
freedom and freedom of speech on campus, the Chinese 
government, apparently they do not agree with that.
    And when many Hong Kong people over the past few months 
supported the movement in Hong Kong and have organized a lot of 
rallies across the globe, in Australia, in the U.K., in the 
U.S., they have received a lot of frightening letters, and they 
are being followed. Their home addresses are being posted on 
social media.
    And that is why we need all the countries, including the 
U.S., to support Hong Kong people on campus and to uphold and 
support academic freedom in the long run. Thank you.
    Ms. Hom. I think the question that all of this is related 
to is China's clear exercise of soft, hard, and sharp power. 
And so I want to say a couple of things on the academic front.
    In the U.S., we have over 300,000 Chinese students from the 
mainland and also students elsewhere. I think Joshua saw 
recently, up close and personal, when he spoke at Columbia, 
what the actions of the students are. I'm not raising it to 
suggest that there's an easy answer, but I do think that we 
must be thinking about how we--and I use it for lack of a 
better word--engage the fact that we're welcoming students into 
U.S. institutions.
    I teach a human rights course at NYU as well. And I had 
some mainlanders who were afraid if they took the course, other 
people would report them--if there were students in the class 
who were observers, So, I am saying that mainland students here 
face censorship as well. Some are protesting in support of Hong 
Kong, but we also have to recognize that they are all under 
surveillance, with families back home.
    I really want to echo Denise's call to bring in the role of 
the companies. In particular, as the PROTECT Hong Kong Act 
moves forward in discussions--and I know that it's going 
through the legislative process--I think it would be really 
good to think about and address the question of the U.S. 
companies, because not only will the denial of export licenses 
really address the issue--it will address the issue of no 
longer being complicit-- but will it address the issue of the 
actual category of lethal and nonlethal materials?
    And I wanted to point out that China hosts the China 
International Exhibition on Police Equipment every two years. 
The next one--they're all held in Beijing--will be held on May 
12th to the 15th. That's a really important date. And they sell 
and they have thousands of exhibitors and companies from all 
over the world. And in the past, we have been monitoring. Many 
U.S. companies have gone to exhibit and sell, and then 
afterwards report very proudly on the----
    [Voices from the hall.]
    Ms. Hom [continuing]. Are we singing? Okay. Not yet. Not 
yet, right? Not singing yet.
    But they've also reported on the hundreds, the millions of 
dollars worth of contracts that they were able to secure in 
Beijing.
    So, I think one thought might be to--aside from--or in 
addition to export licenses, what about technology transfers? 
What about collaboration? What about them training the Chinese 
partner companies? What are the other things that need to be in 
place? Because China has been named an economic competitor of 
the U.S. It's not an even playing field. They're an economic 
competitor where the SOEs are dominating the economy. You are 
not investing in all the U.S. companies, but China is investing 
in all the key industries. And that is technology, AI, the 
military sector, financial services, and the major 
telecommunications companies in the ICT sector, are completely 
state-owned enterprises.
    So I want to share one final thought for what can be done 
going forward. At the end of this year, China rotates off the 
Human Rights Council in 2020.
    I think that the U.S. Government has left the Council for 
various analyses of its effectiveness, but that does not take 
away from the fact that the U.S. is still viewed as a leading 
player among all the member states on the Council. You can 
exercise your role as an observer state. You can also exercise 
your very influential role in working with other democratic 
governments to issue joint statements, joint initiatives.
    So I think 2020 is particularly important. And in 
particular, that is the year to push because you are also on 
the NGO committee of ECOSOC. That is the year to support and 
push for the reforms that are needed to allow independent civil 
society groups to be able to participate.
    As you know, my organization had applied for ECOSOC status, 
over the last 30 years, and both times you can't make it out of 
the NGO committee because China goes [gestures slitting of 
throat]. And that's it. It's ``end of story.''
    So I think it's very important that the U.S. can raise the 
issues not only as an observer in the Human Rights Council but 
in the General Assembly. And I know the USG is quite active on 
the Third and Fifth Committees. That's where I think it's 
really important to exercise leadership. 2020 is the year you 
can push because China will be there with its client states and 
threatening proxy states to support them while they're off the 
Council. But the point is, they won't have a vote, so I think 
it's a good year to perhaps get some traction.
    Mr. Garrett. I will just make a couple of quick comments.
    One is the U.S. has law enforcement cooperation with the 
Hong Kong police, and this may need to be reconsidered or 
looked at more strongly in the future. Second, basically as far 
as companies go in Hong Kong, there is a ``one country, two 
systems'' apartheid-like system where patriotic companies are 
privileged over other companies. If you happen to be a pro-
democracy supporter, you're at the bottom if not an enemy.
    Regarding Hong Kong universities--if I remember my count 
correctly, there are seven public ones. They are all funded by 
the SAR government. So this puts pressure on the type of 
academic agendas, research interests, and so forth. And there 
are real problems if you're considered a sensitive personality 
like Benny Tai, or if you are researching sensitive issues. 
That may or may not be clearly evident.
    There are also a lot of things that happen in Hong Kong 
related to academic and other freedoms that are above the 
waterline and below the waterline. One of the things that the 
Hong Kong police are doing right now is I.D. checks writ large.
    So even if you aren't arrested, your name is being recorded 
and associated as being at a protest site. Now this may come 
down later on in some hiring decision, some vetting process by 
state-owned enterprises or other patriotic Hong Kong companies. 
Former Chief Executive CY Leung discussed such a possibility 
back--I think it was around 2014 or 2012.
    And my last comment would be that Chinese state-owned 
enterprises incorporated in Hong Kong should not be treated as 
Hong Kong companies. Thank you.
    Chairman McGovern. Thank you.
    I know we have two Senators here. There's a vote on, so I 
am going to yield to Senator King, but if we could just keep 
our answers short so they both can get their questions in, I 
think that would be helpful.
    Senator King.
    Senator King. Thank you.
    Ms. Hom, I'm struggling with the fact that we've got an 
island of democracy in a sea of repression. You've got a 
country which now seems to be perfecting the control state. 
Millions of cameras, facial recognition, oppression of the 
Uyghurs, religion, everything, and yet you've got Hong Kong. 
You have two societies moving in opposite directions.
    Very briefly, what's the solution . . . or is there one? 
Where does this end, as a practical matter? As a practical 
matter, there are 7 million Hong Kongers and almost 800 million 
mainlanders, whatever that number is.
    The other piece that I wanted to ask is, is there any 
sympathy for the Hong Kongers within the mainland? Is there a 
nascent--I wouldn't call it a democracy movement, but at least 
a freedom of expression movement, or is the government in such 
firm control that that's a fantasy? Give me a picture of where 
this goes.
    Ms. Hom. Thank you. I have no answers because this is an 
ongoing struggle. But I do want to say that the control state--
you've put your finger right on it. China has built a whole 
ecosystem of control through technology, through the law. We 
didn't even talk about the cybersecurity law----
    Senator King. The most thorough in the history of the 
world.
    Ms. Hom. Most comprehensive, because it also is built on 
self-censorship. It's also built on whole social platforms of 
community reporting on each other. So there is this whole 
ecosystem which is pretty comprehensive that feeds each other. 
But the one thing about technology that's interesting is that 
the asymmetry of power that you could have, a very powerful 
authoritarian state, it has not been able--notwithstanding the 
mass crackdown on lawyers, notwithstanding torture on the 
mainland, notwithstanding the killing of untold thousands in 
the 1989 crackdown; they have not--the Communist Party has not 
been able to shut down people, Chinese people, who continue to 
work for a whole range of human rights. So, that's the first 
point.
    The second thing we haven't really mentioned is that Hong 
Kong has always been, since '89, the only city--and I will say 
within formal China--that has over 100,000 people every year on 
June 4th--remembering. It was Hong Kong students, it was Hong 
Kong journalists who went up to Beijing to support the 
democracy movement in 1989. And there are very moving stories 
of the protesters knowing that the tanks were coming. But they 
said let the Hong Kong students through--they must make it 
safely back because they will tell our story.
    Senator King. Can the Beijing regime tolerate Hong Kong? 
Isn't Hong Kong a fundamental threat to this whole control 
regime?
    Ms. Hom. Half of Hong Kong is a fundamental threat. The 
part of Hong Kong that can be its golden goose that lays the 
golden egg, they like that part. But that goose is not living 
on a free-range farm. And they want that golden goose to 
absolutely keep laying those eggs, but with no air, no freedom, 
no this, no that.
    So they're trying to do something impossible. They're 
trying to keep half of Hong Kong denying the reality of who and 
what Hong Kong is because Hong Kongers have--we have had a 
history of freedom. We've had a history of working courts and 
independence. You can't just wipe it away.
    Sympathy from mainlanders, I know, because I also teach 
human rights seminars at some institutions in Hong Kong, that 
mainlanders participate in the demonstrations. And I can tell 
you, when they participate in the demonstrations in Hong Kong, 
their family back home on the mainland will get a knock on the 
door and a visit from the public security saying, your 
daughter, your son, is in those marches. Tell them to stop.
    So mainlanders in Hong Kong are--it's not just what you see 
in the media of Hong Kongers fighting. There are mainlanders 
who support and are inspired by Hong Kongers--that's what 
Beijing is afraid of. They're afraid, that's why they first 
censored everything. And then suddenly they realized, oh my 
gosh. We cannot censor it. Everybody actually has those illegal 
VPNs and they are getting the information.
    So then they started doing the disinformation because the 
blackout did not work.
    The other point is that there have been mainlanders from 
the beginning, in June, who have expressed support for the Hong 
Kong democracy movement online. What has happened to them? 
Arrested, detained, threatened, intimidated, etc.
    So, notwithstanding the full force of an authoritarian 
police state, they're not able to shut it down. And, Mr. King, 
they're not able to tell mainlanders who do see what they're 
seeing, and who are not afraid, and are willing to also pay the 
price to support Hong Kong's movement, because they understand 
that if Hong Kongers can hold the line, then the mainlanders 
who also want democracy and freedom can also have a chance. But 
Hong Kongers are the front line.
    Senator King. Well, I want to join my colleagues in 
thanking you all. It's hard for us to conceive of the courage 
that it takes. There's no doubt that in this room today is 
someone reporting to Beijing about each of your testimony.
    Ms. Hom. That's right. That's right. So, please make sure 
we are stated properly. I don't want any misquotes.
    [Laughter.]
    Senator King. And I want to thank you for your courage to 
speak the truth. And hopefully we will be able to pass some of 
this legislation to make it clear to the regime in Beijing that 
democracy is an important value and that we are not going to 
just pay lip service to it. Thank you all very much.
    Thank you, Mr. Chairman.
    Chairman McGovern. Thank you all very much.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    I want to thank this panel for coming before this 
Commission and providing some perspective and expertise on this 
important and very timely topic.
    As many of you know, I spent more than five years living in 
Guangzhou and part of that time in Hong Kong back in the 1990s 
when I was in the private sector raising a family. In fact we 
have four children. Our two youngest children were both born in 
Hong Kong.
    I'm deeply concerned with the ongoing erosion of autonomy 
and human rights in the region, and I will tell you I stand 
with the citizens of Hong Kong. In fact, just this past month I 
helped lead a legislative exchange between the U.S. and six 
LegCo leaders who came to my home state of Montana.
    This event was important to better understand the situation 
in Hong Kong and identifying what some of the key issues were 
and having a very open and free exchange.
    As the leader of the free world, we, the United States, and 
the entire world, must continue to support the autonomy and the 
freedom of Hong Kong. It is ``one country, two systems.''
    I was in Hong Kong on June 30, 1997 and saw the Union Jack 
come down for the last time. The Hong Kong Central Government 
needs to work with protesters to accept the demands put forward 
by the citizens of the country, and the use of excessive force 
by the police must end immediately. We must continue to work 
together towards building a strong relationship between our two 
countries.
    A question--and I'll start with Mr. Wong. The protesters 
have formed a consensus around five demands, including 
withdrawal of the extradition bill and, of course, universal 
suffrage. Does the government need to comply with all five 
demands immediately, or is there a phase or alternative outcome 
that might be acceptable?
    Mr. Wong. Hong Kong people have fought for free elections 
and universal suffrage since three decades ago, even earlier 
than I was born. All five demands are the consensus of Hong 
Kongers who took to the streets in the past three months. All 
those five demands are also within the existing constitutional 
framework, especially Beijing fulfilling promises of the Sino-
British Joint Declaration and recognizing the importance of 
letting Hong Kong people enjoy freedom and autonomy, especially 
with the goal of Hong Kong people ruling Hong Kong.
    So I would say that the democracy movement and protests 
must continue until the day we have democracy, even while we 
strongly experience the state capitalist regime crackdown on 
Hong Kong human rights. So I will say that.
    Now we have continued our summer of discontent--it has 
become the year of discontent. We just hope the world will 
understand more how Hong Kong people are in a difficult time in 
this long-term and uphill battle.
    Senator Daines. Let me in, if I could--and thank you. I've 
got a vote coming up I have to get to, and I am probably going 
to get there quickly.
    A final question. How do you expect Chief Executive Carrie 
Lam will respond to these demands? And how much power does she 
have to make concessions, or would Beijing have the final say?
    Mr. Wong. That's an extremely good question. Carrie Lam 
represents a puppet government hand-picked by Beijing. She is 
not a decision-maker.
    What we realized is--withdraw the bill or not, stopping 
police brutality or not, allowing Hong Kong people to enjoy a 
free election or not, all depends on the Beijing authorities 
instead of the chief executive of Hong Kong. Carrie Lam doesn't 
have a say in it. She's just following orders from the Beijing 
authorities, especially on how the state council in Beijing 
regularly holds press conferences in the past few weeks to 
criticize Hong Kong protests. It has already been shown how 
Carrie Lam can't solve the political crisis through her 
personal capacity.
    Senator Daines. All right. Thank you. I've got to get to--I 
would love to keep the discussion going longer, but I've got to 
go down to the floor and vote.
    Thank you very much.
    Chairman McGovern. Thank you very much.
    And I think Mr. Smith has one additional question?
    Representative Smith. Well, thank you very much, Mr. 
Chairman. I do appreciate it.
    If I could--and Ms. Hom, you did mention it, and I think it 
bears a little further scrutiny.
    The notion that there is no such thing as a free lunch, in 
my opinion, applies (on steroids) to the issue of Confucius 
Centers, which are just agents of influence pushing the Beijing 
line. In the past in both my Subcommittee on Human Rights, 
which I chaired, and this commission, I've held a series of 
hearings on Confucius Centers as well as on those entities--
universities, colleges--that get access to mainland China 
especially, and get an enormous number of perks, money, and 
physical plant venues for their colleges or universities, 
including NYU.
    As a matter of fact, I had the chancellor of NYU testify at 
one of my hearings and asked if I could go and speak. And he 
allowed me to come and give a speech or a lecture on human 
rights in Shanghai at the NYU campus.
    But the concern is that they are en route to 1,000 or 
something like that, globally--that is to say the Chinese 
government--with these Confucius Centers. We have 96 in the 
United States. Eighty-two are public. Fourteen are private.
    One of the things that I'm most concerned about--and Rob 
Portman and I asked for a GAO report on this that finally came 
out in February of this year--and that is to look at the terms 
and conditions, which really are mostly secret. But we have a 
situation where hand-picked teachers come to the United States, 
come to Africa, go to Africa, I should say, Latin America, 
everywhere. And they seemingly are doing education in the 
language and culture, but it's all about the worldview and the 
domestic defense of Xi Jinping's policies, including Hong Kong.
    My question very specifically is, what are the Confucius 
Centers? Do you have any insight as to what they are saying 
about what is going on in Hong Kong right now? And those U.S.-
based universities and colleges that are in China today, what 
are they able to say and do without fear of retaliation, like 
at the NYU campus in Shanghai, about this great human rights 
pro-democracy effort on the part of all of you in Hong Kong?
    Ms. Hom. I will start off. Thank you.
    I think it's important also to note that the Confucius 
Institutes and the pushbacks have also been led by really 
active, wonderful activism by students for Free Tibet and the 
Tibetan community supported by the Uyghurs. And I think they've 
had some really good victories that show you really can push 
back and get the institutions to be more accountable and 
reliable.
    I think the quick answer as to what they are saying is: 
What they can say will always be under the guidelines right 
now. Now the ideological campaign that's under way, where every 
single Party nonmember has to participate in political study, 
that the line of the day--what can be reported in Xinhua, what 
can be reported in the news, everything--will be determined 
from the top.
    If you say anything, and as you know under the new 
regulations, under the Cybersecurity Act for the news, news is 
defined very broadly to include opinion and commentary, 
including blogging. So you can't say, blog, or think anything 
except in conformity with the line that comes down on Hong 
Kong. Currently, the line is, it is a ``riot'' backed up by 
``black hands,'' led by the U.S. interfering in a domestic 
affair and violating China's sovereignty.
    This is the same old chestnut we all hear over and over. 
They've got to get a better story here. But that's what they 
keep saying. So I think that is now the dominant line on what 
anyone can say. Because if you say anything against that, for 
example, you have a different idea, not only are you violating 
the new news regulations, you're also running the risk of being 
accused of subversion, incitement, because that is defined as 
challenging the Party's views.
    So I think that's why it is so important that the 
authoritarian system in the mainland must change. It's got to 
change. I know I've heard some of my friends and colleagues say 
to the U.S.: Please, save us. I actually have another angle on 
that. I think Hong Kong people will save ourselves. I think 
Hong Kong people are going to do it.
    What I think is necessary from the international community 
is, please help make the human cost less--because it's very 
clear and heartbreaking that the young people are ready to go 
to the mat. And I think the key is, as I think the U.S. 
Government and this Commission are doing, is to stand by so 
that the human costs can be mitigated a little bit.
    Representative Smith. Understood. But how do the teachers 
in the Confucius Institutes get their marching orders?
    Ms. Hom. This is like going inside of a black box, but let 
me speculate. I am pretty sure that all the curricula are 
approved and reviewed. I'm pretty sure they don't exercise 
academic freedom and say, here is a creative thing I can do 
about Hong Kong. I am pretty sure that they are all approved 
curricula.
    How do we know this? Because you will see nothing there 
about '89. There are just big holes in that history. What's 
happening and all of the--you will probably read about the 
diverse ethnic groups in China, happy people, happy Tibetans, 
happy Uyghurs. You'll probably see that version of what is 
happening. I am pretty sure.
    The other thing is if the--those institutes are also 
monitored. So if anyone says anything that actually challenges 
the dominant narrative, I'm pretty sure that teacher will be in 
trouble.
    So I think it's pretty tightly controlled. And the money is 
the enticement to universities. And I think not only just for 
the Confucius Institutes, they sometimes come along with 
perhaps other incentives like an endowed chair, like money for 
a program. So I think there's this kind of institutional 
collapse in the face of this.
    Because Senator Daines left, can I say something to him 
anyway?
    Senator, I'm so sorry, but I really think it's important. 
As you are somebody who loves Hong Kong and personally and 
professionally and as a member from the private sector, I think 
we need to also remember that every single SOE, state-owned 
enterprise, has a Party committee. And now that requirement has 
extended to companies with foreign investments and foreign 
companies.
    I had a Canadian company ask me, how could that be? Why are 
they making us establish a Party committee? I said, you're not 
being targeted. All the companies will have to have a Party 
committee.
    What does the Party committee do? Review your personnel, 
review your management, review your business decisions, make 
sure everybody is ideologically pure, blah, blah, blah, like 
that. Do they hide this? Not a secret.
    Look at past annual reports of China Telecom, China Mobile. 
They have pictures of the annual meeting of the Party committee 
saying, ``We did good. The Party committee's happy with us this 
year. We complied.''
    So I think American companies going in, there are listed 
SOEs. I think Apple Daily reported over 120 that are listed--
Chinese companies listed on the Hong Kong exchange. They all 
have Party committees within their management structure.
    So I think we need to look at that when you're looking at 
these other actors.
    Chairman McGovern. Well, thank you very much. You have been 
very patient. You have been here for 2<SUP>1</SUP>/<INF>2</INF> 
hours. I am the last person. So you have to bear with me a 
little bit more, but this hearing is winding down.
    First of all, let me thank everybody for being here. 
Everybody's testimony has been, I think, informative and has 
given us some marching orders. I appreciate your responses to 
the questions.
    And, you know, Congressman Smith earlier on in the hearing 
referenced the past inaction by the U.S. Government in response 
to human rights abuses in China and we've kind of looked the 
other way, or we thought more trade would do it, or more this 
or that would do it, or whatever. And really things haven't 
gotten any better. Things are continuing to get worse.
    And I think it's fair to say that for the most part, the 
U.S. Government has been very good at kind of talking the talk. 
When it comes to Tibet, we issue the obligatory statement that 
we respect the right of the Tibetan people to practice their 
religion and we respect His Holiness, the Dalai Lama. But the 
repression continues and there's no consequence.
    I think part of what we're trying to do is change that. 
Just talk in and of itself doesn't end up changing anything. 
There needs to be a consequence. So we are trying to move 
legislation forward that would impose that consequence. And I 
think it is very clear from everybody here that the PROTECT 
Hong Kong Act and the Hong Kong Human Rights and Democracy Act 
are important items for us to pass in the House and Senate. And 
I believe, and I can probably give you an assurance, that we 
will do that. I mean, you know, it does not happen here 
overnight.
    Senator Rubio talked about hearings that are happening in 
the Senate. We have assurances from the relevant committees in 
the House that they will move on this. And I believe they will 
come to the House floor and they will come to the Senate floor 
and they will receive bipartisan support. So that will happen. 
So we get the message on that, and we will follow through. So 
we have our assignments.
    Mr. Wong, and Ms. Ho, and Mr. Cheung, you have traveled 
along with some of your colleagues who are behind you, and I 
want to recognize them as well, have traveled a long way at a 
very critical time in Hong Kong. And you've come here to build 
international support for Hong Kong. And I think it would be 
important for the record for you to say why it is so important 
that the international community and the United States support 
your effort, why that is critical to success and what you are 
doing.
    And I also would like to get everybody's response to this. 
And that is, you know, I have to be honest with you, I have 
not--I've been somewhat disappointed in the current 
administration's--our administration's response to what is 
happening in Hong Kong. I think it should be much more 
forceful. I would appreciate your comments on advice that you 
would give the Trump Administration on what they should be 
saying when dealing with the Chinese government.
    Why don't we begin with Dr. Garrett, because we have been 
going--we will end with Mr. Wong.
    Mr. Garrett. Speaking to what advice we could give the 
Trump Administration, I would say that U.S. responses have to 
be resolute, to use the Hong Kong term. If they're not hard, 
and if they're not unwavering, you will not get any respect 
from Xi Jinping's Communist Party. They will exploit it.
    The strong-man aesthetic is what rules Beijing right now. 
And even in Hong Kong and Tamar. So this dealmaking doesn't 
really mean much to them because whatever deal they make 
they're going to subvert. So it is like with the rule of law, 
just like what universal suffrage, just like what defense means 
in the Hong Kong Basic Law. It means something different. We 
call it Party-speak. And I think the administration has to be 
aware of this Party-speak and understand it.
    Second, as others have alluded to on both sides of the 
Pacific, this is the first ideological confrontation of the new 
Cold War. Whether or not you agree it's a cold war or not, the 
discussions have been out there, but it's perceived by both 
Beijing and people in D.C. to be an ideological confrontation.
    The witnesses here, the people in this room, are looking to 
save Hong Kong's autonomy, to save the two systems. Well, in 
Beijing, and some places in Hong Kong, they are looking to 
weaponize the two systems against the U.S. So this is not just 
an issue of getting a good trade deal from China. It's an issue 
much broader than that.
    The weaponization of ``one country, two systems''--or the 
two systems specifically, is looking at how China can use Hong 
Kong's advantages, such as U.S. customs treatment of it, to 
exploit the world. We've seen it with the recent scandal at the 
United Nations where Patrick Ho was basically found guilty of 
state capture at the United Nations to promote the Belt and 
Road Initiative.
    We've seen it earlier with China getting its first aircraft 
carrier from Ukraine. That was done through a whole series of 
deceptions and manipulations of Hong Kong's special status.
    These types of things are still going on today. But we're 
not looking at them, and this is one of the reasons why, in my 
opinion, it's very important to treat state-owned enterprises 
in Hong Kong and anybody affiliated with the CPPCC or the NPC 
differently than how we would treat regular Hong Kongers. Thank 
you.
    Chairman McGovern. Thank you.
    Ms. Hom.
    Ms. Hom. I really think that's a scary thought to give 
advice to Trump or the administration, but I think that any 
actions by the administration have to hold true to the U.S.'s 
core values. The U.S. has core values on human rights and 
democracy and freedom.
    And I totally echo, Hong Kong should not be made into a 
bargaining chip in some deal that's on the table.
    The ideological confrontation and the battle of the models 
is actually much more than that. It's really China against the 
world. It is not two models of equal legitimacy--because the 
model that China is trying to attack and replace is the model 
that the international community with Eleanor Roosevelt, in 
fact, playing a very key role in the drafting of the Universal 
Declaration of Human Rights--it was a new world order that 
emerged to say we will never again have what happened in Nazi 
Germany. We will never again have mass detentions. We will 
never have mass trampling on human dignity.
    So to take down that human rights order, it's not about 
models. The Chinese model is not co-equal. It is a Chinese 
Party model. And I think we should start framing it as China 
against the dominant world order. It is a dominant world order, 
and it still exists, and they can't treat it as if we can now 
just change a model.
    And so I think on no consequences criticism . . . there 
needs to be more consequences, but it is not totally accurate 
to say no consequences. It's very important to recognize that 
there are consequences already. When the U.S. speaks up, when 
the Commission has this hearing, it's being watched, and it's 
being listened to. I'm sure we are in living rooms in Beijing 
right now of some high official watching this. But----
    Chairman McGovern. You're live on C-SPAN.
    Ms. Hom. I'm live on C-SPAN.
    [Laughter.]
    Ms.  Hom. Hong Kong Yan, Gaa yau! (Hong Kongers, Add oil!) 
is what I have to say to them.
    So I think the consequences that we also should keep in 
mind is the Party does want legitimacy. It can't stay in power 
through naked military bullying and force. It can get a long 
way with bullying, but it can't stay in power without 
legitimacy. That's the whole international human rights 
system--the U.S. holding on to core values. You don't have to 
give that up. You say, no, we're not going to give you that 
legitimacy. You're acting like a thug. We don't respect thugs. 
So I think that's really important.
    Chairman McGovern. Thank you.
    Mr. Cheung.
    Mr. Cheung. A quick response to your question is that China 
is getting more wealthy and is getting mighty. China is picking 
fights with all the other countries in the free world. China is 
expanding their military in the South China Sea. They ignore 
the international court's judgment and claim that they have the 
ownership of the South China Sea, which severely threatens 
security in the Asia-Pacific region.
    They even picked a fight with the Canadians regarding the 
Huawei incident. Who picks a fight with Canadians? Only China, 
I think. This is unreasonable and that explains how assertive 
China is.
    And that's why I believe only the Americans--you are the 
only superpower that can really try to contain China. That's 
why we need support from the U.S. Government.
    And regarding how China is doing a lot of silent invasion--
I use the word according to Professor Hamilton in Australia--
they are using a very silent invasion, using their economic 
dominance trying to colonize and control many local societies 
in other countries.
    And many local societies in other countries are already 
compromised, like some East Asian countries such as Sri Lanka. 
They have to lease a military port to China for 99 years. 
Apparently, this is new imperialism for me, and I believe only 
the U.S. can contain China.
    Also secondly, I believe, why the U.S. should be concerned 
about Hong Kong is that you have many interests here and you 
have to secure your interests. For example, a few months ago 
when there was a U.S. sanction that Hong Kong should not allow 
a ship which was carrying oil from Iran.
    And the point is that the Hong Kong government, they 
ignored the U.S. sanction and they allowed the ship from Iran 
to come to Hong Kong and try to carry the oil back to Iran. And 
apparently, this undermines your interests, and that is why 
this is one of the most important reasons you should care about 
Hong Kong and you should do something instead of just maybe 
issuing a statement to support Hong Kong.
    Thank you.
    Chairman McGovern. Thank you.
    Ms. Ho.
    Ms. Ho. This historic fight in Hong Kong has only been 
possible with the determination of the youngsters and of the 
Hong Kong people. And I would really like to take this chance 
to thank the members of this Commission and Chairman McGovern 
and Cochairman Rubio for the continuous attention on Hong Kong 
issues and, of course, to the push of this Act because this has 
contributed in giving hope to the Hong Kong people. And the way 
that it is telling the youngsters that their efforts are 
actually making a change in the world. And that we are not in 
an isolated struggle. It is a global fight. We are on the front 
lines of this global fight to protect these universal values 
that we all cherish.
    So hopefully by passing this Act, we would be seeing 
momentum in the international community where other countries 
might join in and preserve these values and also monitor this 
totalitarian regime that is actually destroying these values on 
a daily basis.
    So thank you very much.
    Chairman McGovern. Thank you.
    Mr. Wong.
    Mr. Wong. With the sharp power expansion from China to 
Canada and Australia, the Belt and Road Initiative implies how 
China takes economic advantage in European countries, and how 
China does not respect the international order even after 
entering the WTO, after promises on the Joint Declaration, and 
even after having negotiations with the U.S. on the trade deal.
    We are all aware of the rising China model. It is just the 
expansion of totalitarian rule without any respect for the 
international order with liberal values. That implies and 
explains why Hong Kong matters to the world, because Hong Kong 
people stand at the forefront to confront authoritarian rule, 
and Hong Kong people are aware that Hong Kong is the forefront, 
and we will confront the authoritarian crackdown. If Hong Kong 
falls, then maybe next the free world.
    And I strongly realize now is the time for the U.S. 
Congress to pass the Hong Kong Human Rights and Democracy Act. 
And also, I hope the U.S. Government could reveal its foreign 
policy to China to prioritize human rights issues, especially 
now. We are not only suffering a political crisis, but a 
humanitarian one as well.
    The first time for me to be in prison was two years ago. I 
remember I watched TV news on how Beijing authorities announced 
no term-limit for presidents in the future, which just let me 
realize that the one who locked me up in prison, which means 
the authoritarian rule represented by President Xi, will be 
Emperor Xi.
    So that's the uphill and long-term battle. In 2047, no 
matter whether it's me, or Sunny, or others, we will be age 50. 
And I hope after 28 years Hong Kong can still be our hometown 
with freedom and democracy.
    And I think it is time to thank all the Congressmen and 
Senators in the past few years, and even in the past few 
decades, for really paying attention to the protest movement in 
Hong Kong. We stand in solidarity. We stand as one. Hong 
Kongers never walk alone.
    Thank you.
    Chairman McGovern. Thank you very much.
    [Applause.]
    Chairman McGovern. Let me thank the staff of the Commission 
for all the work that they did in preparing this hearing. Let 
me thank, again, the panelists. And to our friends from Hong 
Kong, let me thank you for your courage and commitment.
    I think what is prompting action here in the Congress is 
your courage that we see unfolding on our television screens 
and we read about in the newspapers.
    I have to tell you, I think for everybody here, you have 
been an inspiration. And as I said at the beginning of the 
hearing, we are a diverse political group on this Commission. 
But on this issue, we're in solidarity with you. We believe 
that the future of Hong Kong ought to be determined by the 
people of Hong Kong.
    And, again, I can't thank you enough for being here. So 
thank you.
    This hearing is adjourned.
    [Whereupon, at 12:39 p.m. the hearing was concluded.]

?

=======================================================================




                             A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                        Statement of Joshua Wong

    Good morning, Chairman McGovern, Cochairman Rubio, and members of 
the Commission. It's an honor to be invited back to Capitol Hill to 
speak about developments in Hong Kong. You may recall that I last 
traveled to Washington more than two years ago and testified before 
this commission, in this same building, on May 3, 2017. At the time, I 
warned about the probable disqualification of my friend Nathan Law, who 
had been Asia's youngest democratically elected legislator and who is 
in the audience this morning. I also warned about massive political 
prosecution. Unfortunately, both materialized: Nathan lost his seat 
that July, and we were both imprisoned in August for our roles in the 
Umbrella Movement. Further legal troubles in relation to the 2014 
protests prevented me from traveling abroad.
    While I said then that Hong Kong's ``One Country, Two Systems'' was 
becoming ``One Country, One-and-a-Half Systems,'' I don't think there 
is any doubt among observers who have followed recent events that, 
today, we are approaching dangerously close to ``One Country, One 
System.'' The present state of affairs reveals Beijing's utter 
inability to understand, let alone govern, a free society.
    The ongoing demonstrations began on June 9 when one million Hong 
Kongers took to the streets in protest of proposed legislation that 
would've allowed criminal suspects to be extradited from Hong Kong to 
China, where there are no guarantees of the rule of law. Still, before 
the night had even ended, Chief Executive Carrie Lam announced the 
bill's reading would resume in three days. Hong Kongers were bracing 
for their last fight on June 12.
    And then the unthinkable happened: Knowing that Beijing controlled 
enough votes in the Legislative Council, protesters surrounded the 
complex early in the morning, successfully preventing lawmakers from 
convening. I was then serving my third jail sentence. For a moment, I 
wondered why the news channel was replaying footage of the Umbrella 
Movement, though it was not long before I realized Hong Kongers were 
back. Lam suspended the bill on June 15, but fell short of fully 
withdrawing it. A historic two million people demonstrated the 
following day, equivalent to one in four out of our entire population. 
I'm not aware of anything comparable to this level of discontent 
against a government in modern history.
    I was released exactly three months ago, on June 17, and have since 
joined fellow Hong Kongers to protest in the most creative ways 
possible. In addition to the bill's withdrawal, we demanded that Lam 
retract the characterization of us as ``rioters,'' drop all political 
charges, and establish an independent investigation into police 
brutality. Some of us crowdfunded for newspaper advertisements ahead of 
the G-20 summit in late June, calling for the world not to neglect Hong 
Kong. Others broke into and occupied the Legislative Council complex on 
July 1, the same day another 550,000 Hong Kongers protested peacefully.
    Crowds continued to show up in large numbers every weekend, with 
smaller rallies taking place almost daily across the territory. But the 
government would not listen; instead of defusing the political crisis, 
it dramatically empowered the police. The movement reached a turning 
point on July 21. That night, thugs with suspected ties to organized 
crime gathered in the Yuen Long train station and indiscriminately 
attacked not just protesters returning home and reporters on the scene, 
but even passersby. The police refused to show up despite repeated 
emergency calls, plunging Hong Kong into a state of anarchy and mob 
violence.
    On August 5 alone, the day Hong Kongers participated in a general 
strike, the police shot 800 canisters of tear gas to disperse the 
masses. Compare that to only 87 fired in the entire Umbrella Movement 
five years ago, and the police's excessive force today is clear. Their 
increasingly liberal use of pepper spray, pepper balls, rubber bullets, 
sponge bullets, beanbag rounds, and water cannons--almost all of which 
are imported from Western democracies--are no less troubling. In light 
of this, I applaud Chairman McGovern for introducing the PROTECT Hong 
Kong Act last week in the House of Representatives. American companies 
mustn't profit from the violent crackdown of freedom-loving Hong 
Kongers.
    Cochairman Rubio is also right for recently writing that ``Hong 
Kong's special status'' under American law ``depends on the city being 
treated as a separate customs area, on open international financial 
connections, and on the Hong Kong dollar's peg to the U.S. dollar.'' 
Beijing shouldn't have it both ways, reaping all the economic benefits 
of Hong Kong's standing in the world while eradicating our 
sociopolitical identity. This is the most important reason why the Hong 
Kong Human Rights and Democracy Act enjoys the broad support of Hong 
Kong's civil society, a point which I want every member of Congress to 
take note of.
    Lam finally withdrew the bill earlier this month, but just as 
protesters have long stopped calling for her resignation, this decision 
is almost meaningless now. The movement is far from over, because it 
has long moved beyond one bill or one person. Our fifth and most 
important demand is genuine structural change in Hong Kong. Our 
government's lack of representation lies at the heart of the matter.
    As I speak, Hong Kong is standing at a critical juncture. The 
stakes have never been higher. Authorities have all but stopped issuing 
permits known as ``letters of no objection,'' so virtually every 
demonstration is an ``illegal assembly.'' Moreover, we are confronted 
by the huge Chinese military buildup just across the border in 
Shenzhen. President Xi Jinping is unlikely to take bold action before 
the upcoming 70th National Day in October, but no one can be sure 
what's next. Sending in the tanks remains irrational, though not 
impossible. Chinese interference in Macau, Taiwan, Tibet, and 
especially Xinjiang, serves as a reminder that Beijing is prepared to 
go far in pursuit of its grand imperial project.
    I was once the face of Hong Kong's youth activism. In the present 
leaderless movement, however, my sacrifices are minimal, compared to 
those among us who have been laid off for protesting, who have been 
injured but too afraid of even going to a hospital, or who have been 
forced to take their own lives. Two have each lost an eye. The youngest 
of the 1,400 arrested so far is only a 12-year-old schoolboy. I don't 
know them, yet their pain is my pain. We belong to the same imagined 
community, struggling for our right of self-determination so we can 
build one brighter common future.
    A baby born today will not even have celebrated his 28th birthday 
by July 1, 2047, when Hong Kong's policy of ``50-year no change'' is 
set to expire. That deadline is closer to us than it appears; there's 
no return. Decades from now, when historians look back, I'm sure that 
2019, much more so than 2014, will turn out to have been a watershed. I 
hope, too, that historians will celebrate the United States Congress 
for having stood on the side of Hong Kongers, the side of human rights 
and democracy.
                                 ______
                                 

                         Statement of Denise Ho

    Thank you, Chairman McGovern, Cochairman Rubio and members of this 
Commission for holding this hearing and for having us here at this very 
critical time for Hong Kong. We hope that our personal accounts will be 
helpful in your deliberations on what the United States Congress and 
American people can do to help the Hong Kong people in the face of the 
erosion of our liberties and autonomy.
    For more than 100 days now, the Hong Kong youth have led our city 
into the historic fight of our times. It is a leaderless movement, with 
widespread participation from people from all walks of life. It is a 
fight for democracy, a fight for human rights, and most of all, a fight 
for universal values and freedoms.
    What started out as a million-people march against an extradition 
bill morphed into a determined fight for fundamental political reform 
in Hong Kong. Misjudgments and arrogance on behalf of Carrie Lam, the 
Chief Executive Officer of Hong Kong, resulted in a total clampdown by 
the Beijing government over Hong Kong affairs, at the same time that 
the reluctance of both governments to fully implement ``One country, 
Two systems'' in Hong Kong surfaced.
    With Carrie Lam hiding behind the police force for months, refusing 
to resolve political issues with sincerity, she has given the police 
full authority to suppress the protests at all costs.
    Since June, the Hong Kong police have shown excessive brutality in 
their use of force, arresting and beating up peaceful protesters 
heavily on uncountable occasions. More than 1,400 people have been 
arrested to date, with even more (including journalists, first aiders 
and social workers) severely injured by tear gas, rubber bullets, water 
cannons, and the police's indiscriminate use of batons. On a personal 
note, it has been extremely difficult to be away from home and to watch 
the people safeguard the city from afar, especially in the past weekend 
where we have seen police behavior getting out of control.
    Sadly, it has become a common daily scene to see youngsters being 
pinned to the ground, with bleeding head concussions and some even 
knocked unconscious, but still refused medical care by the police.
    Riot police and plainclothes officers have shown no restraint while 
performing their duties. From the early weeks, they have deliberately 
hidden their ID numbers, refused to show warrant cards even on request, 
therefore making it impossible for citizens to verify the legitimacy of 
plainclothes officers, nor to hold any police officer accountable for 
their violations.
    Last month, a university student in possession of ten laser 
pointers was arrested and detained for 48 hours. A first aider was shot 
in the eye by a beanbag round dispersed from above head level, risking 
permanent loss of sight. On August 31st, police from the Special 
Tactical Unit charged into Prince Edward MTR station, beating up 
passengers randomly. Consequently, they shut down the station for 24 
hours, refusing medical care for those who were injured, raising 
suspicion of possible death in the station. They have recently charged 
into secondary schoolyards, shopping malls and on buses, where young 
people merely dressed in black clothing could be searched or even 
arrested without justified reasons.
    In short, in our Hong Kong today, being young is a crime. We are 
now officially a police state, where people live in constant fear of 
political repercussions.
    In addition, on July 21st, in an infamous mob attack that occurred 
in the Yuen Long MTR station, where white-shirt-clad thugs attacked 
civilians indiscriminately, the police failed to arrive in a timely 
manner, only making their appearance 39 minutes after the incident, 
despite hundreds of emergency calls for help. Similar situations 
occurred later in the protests, where police would give favorable 
treatment to mobs and pro-Beijing supporters, helping them leave the 
sites after having attacked protesters, showing clear and continuous 
collusion between police and triad members.
    On August 11th, police prevented pro bono lawyers from providing 
legal assistance to arrested protesters in the Sun Uk Ling Holding 
Center, violating the legal rights of 54 persons. There were also 
claims from female protesters of sexual harassment inside the police 
station, and of physical abuse on numerous occasions.
    Since July, more than thirty ``no objection applications'' for 
rallies and marches have been systematically denied, including the 1.7 
million-people rally on August 18th, where protesters gathered and 
marched peacefully despite the ban. According to Hong Kong Basic Law 
and international standards, Hong Kong residents have the freedom of 
assembly and demonstration, where peaceful public assembly is a 
legitimate use of public space. By banning the assemblies, the Hong 
Kong government is violating the people's right to peacefully protest.
    With police violations accumulating by the day, Hong Kong people 
have been demanding that an independent investigative council be 
formed. The Chief Executive Carrie Lam has refused to do so, claiming 
we have ``a well-established (IPCC), set up for exactly this purpose.'' 
This existing watchdog, the Independent Police Complaints Commission, 
is in fact entirely appointed by the CE herself, has no legal power to 
summon witnesses nor to force the police to provide sufficient 
documents, and is therefore powerless in bringing justice to the 
situation.
    On its face, it all started with an extradition bill. But at the 
core, it has always been about fundamental conflicts between these two 
very different sets of values: on one side, the China model, which has 
no respect for human rights and the rule of law and demands their 
people's submission. And the other, a hybrid city that has enjoyed 
these freedoms for most of its existence, with a deep attachment to 
these universal values that the United States and other western 
societies are also endeared to. Unfortunately, with the rise of the 
present iron regime of Xi Jinping, ``One country, Two systems'' is 
racing towards its death.
    Hong Kong represents something very unique in the world--as a 
crossroads that is strongly rooted in its own Asian cultures and yet 
has come to be known for its values and rule of law, transparent 
institutions, and freedom of information and expression. We represent 
the hope that as nations develop, they will evolve towards these 
universal values which protect individuals everywhere.
    These protections are why over 1,500 multinational companies have 
chosen to place their regional headquarters in Hong Kong, the biggest 
proportion of these by country, from the United States. Hong Kong has 
become one of the most globally interconnected, financially important 
trading economies in the world, helping bring countries closer together 
through finance and today, through the flow of data, goods, ideas, 
culture and people.
    However, this system is now under threat like never before. 
Companies such as Hong Kong's major airline Cathay Pacific have 
succumbed to political pressure, firing dozens of employees due to 
their political stance, some only over a mere facebook post. Business 
people are coerced into making political decisions. MTR Corporation, 
our subway system, has deliberately shut down stations during rallies 
and marches due to pressure from a state newspaper, resulting in more 
than hundreds of arrests and unnecessary injuries.
    As a singer and activist from Hong Kong, I have experienced the 
suppression first hand. Ever since the Umbrella Movement in 2014, I 
have been blacklisted by the communist government. My songs and my name 
are censored on Chinese internet, and I have been ``called out'' 
several times by state newspapers. Pressured by the Chinese government, 
sponsors have pulled out; even international brands have kept their 
distance in fear of being associated with me. For the past five years, 
and even more so recently, China tried to silence me with their 
propaganda machines and smearing campaigns, making claims that are 
completely false. Right now, I am facing threats from the communist 
government and pro-Beijing supporters, and could face arrest and 
prosecution at any time.
    Not only have I faced increased difficulty in continuing my singing 
career in China and Hong Kong, but the self-censorship has now spread 
towards global institutions and cities. Recently, the National Gallery 
of Victory in Melbourne, Australia denied a venue to a collaborative 
event of Chinese artist Badiucao and myself, due to ``security 
concerns.'' The 2019 gay pride event in Montreal, Canada banned Hong 
Kong activists due to similar reasons. Celebrities from Hong Kong, 
Taiwan, and China are all pressured into taking a political stance, 
voicing their unanimous ``support'' for the Beijing government on 
social media, and could be condemned for keeping their silence. Even 
the songwriter of the new unofficial ``anthem'' for Hong Kong has opted 
to stay anonymous, in fear of future reprisal.
    Hongkongers are now living in constant fear and have unfortunately 
lost most of our freedoms. For a city that has been infamously known as 
politically indifferent, the younger generations have taken up the role 
of safeguarding our home, standing up courageously to the corrupt 
system in spite of increased and ruthless suppression. They have 
awakened other Hong Kong people, and together we have taken the world 
by surprise with our continued fight.
    To the rest of the world, the United States is often a symbol of 
freedom and democracy. The freedom Americans enjoy is something the 
people of Hong Kong have long hoped for. Even though our languages and 
cultures differ, what we have in common is the pursuit of justice, 
freedom, and democracy.
    Through the challenges of Hong Kong, the West is waking up to 
China's insinuating power on a global scale. Hong Kong is connected to 
the world in multiple ways (institutional, social, economic, personal), 
but China is trying to isolate it to exert control. If Hong Kong falls, 
it would easily become the springboard for the totalitarian regime of 
China to push its rules and priorities overseas, utilizing its economic 
power to conform others to their communist values, just as they have 
done with Hong Kong in the past 22 years. The U.S. and its allies have 
everything to fear if they wish to maintain a world that is free, open, 
and civil.
    I therefore urge the U.S. Congress to stand by Hong Kong, and most 
of all, to pass the Hong Kong Human Rights and Democracy Act. This is 
not a plea for so-called foreign interference, nor for Hong Kong 
independence. This is a plea for universal human rights. This is a plea 
for democracy. This is a plea for the freedom to choose.
    And lastly, may I quote Eleanor Roosevelt, your most beloved First 
Lady: ``You gain strength, courage and confidence by every experience 
in which you really stop to look fear in the face. You are able to say 
to yourself, `I lived through this horror. I can take the next thing 
that comes along.' ''
    This is a global fight for the universal values that we all 
cherish, and Hong Kong is on the very front lines of this fight. We 
were once fearful of what might come with our silence, and for that, we 
have now become fearless.
                                 ______
                                 

                       Statement of Sunny Cheung

    My name is Sunny Cheung. I am the spokesperson of the Hong Kong 
Higher Institutions International Affairs Delegation (HKIAD), a group 
which represents over 100,000 students from all student unions in Hong 
Kong. We aim to garner international support through raising awareness 
and concerns with the international community. Our mission is to 
mobilize support for the Hong Kong Human Rights and Democracy Act of 
2019. In August, we held a peaceful rally in central Hong Kong. Over 
60,000 people attended to communicate their support for the Act. 
Currently, we are deeply involved in organizing a large-scale class 
boycott to put pressure on the government.

Background to the Current Protest Movement: The Umbrella Movement and 
Hong Kong Identity

    The 2014 Umbrella Movement was a watershed moment in Hong Kong's 
story. Hundreds of thousands demonstrated and protested for democracy, 
but the government granted us nothing but prosecution. We lost hope and 
realized Beijing would not grant Hong Kong democracy as promised.
    Under the ``one country, two systems'' blueprint, Hong Kong is 
gradually becoming more and more like China. The grand plan and 
ambition of the Greater Bay Area project is to completely erase our 
identity as Hongkongers. Hong Kong could become just another city in 
China. The ``two systems'' framework has not been able to defend us 
from prosecution under harsh and unfair laws.
    But the younger generation will not accept Beijing's cultural 
invasion. Hong Kong has 177 years of history since 1842, for almost all 
of which Hong Kong was separate from China and developed its own unique 
culture and identity. Freedom and the rule of law are our core values. 
Culturally, Hong Kong is different from China. We consider ourselves 
Hongkongers rather than Chinese. A recent survey conducted by Hong Kong 
University found that only 11% of respondents see themselves as pure 
Chinese. We want so much to preserve our local language, Cantonese, and 
also our traditional Chinese characters in written Chinese which are 
different than the simplified version used in China.

Anti-extradition Protest and Five Demands

    Hong Kong's extradition law protests began as a protest against 
amendments to the city's extradition legislation which could have 
marked the end of Hong Kong's autonomy. The Hong Kong government was 
trying to change the legislation so that it would become legal to 
extradite people to mainland China. China's courts have no 
independence, and this move would have permanently compromised Hong 
Kong's rule of law and autonomy which are protected under the Sino-
British Joint Declaration and the one country, two systems principle.
    On June 9, 2019, 1 million people took to the streets to say ``no'' 
to the extradition law. Carrie Lam ignored our cry. Students have 
played a major role, although this movement is leaderless. On June 12, 
2019 hundreds of thousands of us occupied the streets. The police 
committed appalling brutality, firing rubber bullets and tear gas at 
peaceful protesters. Among them were lots of students, including high 
school students. Carrie Lam was forced to ``suspend'' the bill. On June 
16, 2019, 2 million people marched to ask for a full withdrawal of the 
extradition bill, an independent inquiry into police brutality, and the 
retraction of rioting charges.
    The government said ``no'' to these reasonable demands, despite 
calls from senior judges and business leaders. They could have defused 
the situation then, but they chose not to. The scene was set for months 
of protest. A dozen young people jumped to their deaths in protest. 
Many students took to the streets, leaving behind a note of last wishes 
as they prepared to die for Hong Kong in each protest. This is the 
fight for freedom and democracy. We do it because we love our city.
    The police force was instructed to stamp out the protests by force. 
Instead of intimidating the brave people of Hong Kong, their actions 
have strengthened our resolve.
    The people of Hong Kong drew up five demands which have been at the 
core of the protests since June. They are:

    <bullet> The complete withdrawal of the extradition bill from the 
legislative process.
    <bullet> The retraction of the ``riot'' characterization.
    <bullet> The release and exoneration of arrested protesters.
    <bullet> An independent inquiry into the police brutality.
    <bullet> Universal suffrage for the city's leadership and the 
parliament.

    In September, Carrie Lam, the Chief Executive, finally agreed to 
propose the withdrawal of the bill in the city's Legislative Council. 
But this is too little, too late, particularly after months of police 
violence.

Police Brutality

    What is now driving the protests is the ongoing violent actions of 
the police. Beijing has given the Hong Kong Police Force complete free 
rein, and their actions have horrified the Hong Kong public. Their 
actions include randomly firing tear gas at the general public and 
journalists, firing tear gas inside train stations, shooting rubber 
bullets to the head, as well as the mistreatment and torture of 
detainees. This has led to a collapse of trust in the government and 
the police force. Compromise will not be possible until the government 
calls for an independent inquiry into police brutality.
    There have been multiple horrifying events. The events of July 21, 
2019 were a key turning point. White-shirted members of triad gangs 
entered Yuen Long MTR station carrying wooden sticks and beat up 
civilians, journalists, protesters returning home, and the lawmaker Lam 
Cheuk-ting. Lam's arm was broken, and many were hospitalized, including 
a number of journalists. The images were broadcast throughout Hong 
Kong.
    The police did not respond to emergency phone calls for the first 
forty-five minutes and failed to stop the gang members or arrest anyone 
that evening. Images appeared of members of the mob standing alongside 
police officers earlier in the evening, holding the sticks they later 
used to attack protesters. Police inaction has granted immunity to 
these thugs who now routinely attack protesters and civilians. Another 
awful evening was August 31, 2019, when the police indiscriminately 
attacked civilians in the Prince Edward MTR station. One of the victims 
was a representative of HKIAD. On that traumatic and horrifying night, 
he was wearing a suit and passing through the Prince Edward train 
station. Yet, with the blockade created by the police, countless 
innocent civilians were trapped and the press was ordered to leave the 
scene without justification. He was outflanked on an escalator 
alongside a group of innocent civilians, who were just trying to get 
safe passage out of the station, which had become a hunting ground for 
the police. Then the passengers were insulted, arrested, struck, and 
stepped on by the police with batons and shields. They arrested them 
despite knowing they were innocent. Besides, we student union members 
frequently received threatening letters targeting us and our family, 
saying we would soon be killed. The threats against Student Union 
leaders are real and common. The Chair of the Hong Kong University 
Students' Union has resigned and fled the city after he was beaten 
violently. There is a collapse of trust in the government and the 
police force. Compromise will not be possible until the government 
calls an independent inquiry into police brutality.

Why Does Hong Kong Matter? Asia's Prominent World City Is Dying

    Hong Kong's story matters. Hong Kong is one of the world's top 
international financial centers and one of Asia's few liberal cities. 
Our people care about freedom and democracy. We disprove the lie that 
Asian cities cannot have democratic values.
    This is particularly true for young people. We will not compromise 
our dignity, freedom, and democracy for superficial prosperity. How we 
see our future and the meaning of life is different from the older 
generation. The older generation--especially those who are now 
ministers in the government and leaders of businesses--see material 
gain as the ultimate goal and success in life. But in Hong Kong, 
prosperity is only for the few. Twenty-two years after the change-over 
of sovereignty, we have to wake up to the fact that we cannot 
compromise our dignity and freedom for the sake of stability and 
prosperity for the rich and those who are in power.
    Over 1 million Hongkongers are living below the poverty line. 
Inequality in Hong Kong is at extreme levels for a developed country 
and getting worse. An Oxfam report last year found that the median 
monthly income of the top decile of the population was 44 times higher 
than the lowest decile in 2016, up from 34 times in 2006. Hong Kong 
people live in some of the smallest apartments in the world because the 
government controls the supply of land and releases it slowly, in the 
interests of developers rather than the population.
    Our system is corrupt because we do not have democracy as promised 
in the Basic Law. We cannot vote for our leader, and the Legislative 
Council is rigged by a functional constituency system, which means that 
big businesses and vested interests decide who represents 50% of the 
seats. Successive Chief Executives have done dirty backroom deals with 
property tycoons to keep home prices artificially high. Democracy is 
and will be one of our core demands for this reason.

Hong Kong Is on the Front Line of the Battle for Freedom and Against an 
Authoritarian China

    Since joining the World Trade Organization, China has been 
utilizing the benefits of free trade to consolidate its authoritarian 
governance. The rise of an authoritarian China puts liberal democratic 
values in danger.
    Domestically, the Communist Party suppresses activists in Hong Kong 
and mainland China. Nowhere is this more clearly seen than in Xinjiang, 
where the Chinese authorities have built concentration camps and 
subject ethnic minorities to mass surveillance, torture, killings, and 
arbitrary arrests. On this subject, the UN decried China as a shameful 
country last year.
    Globally, under China's money diplomacy tactic, many small 
countries have already been compromised and lost their control over the 
local society. Sri Lanka has to lease a strategic port to China for 99 
years. Scholars describe this phenomenon as economic colonialism and 
the new imperialism. It is crystal clear that China is using its 
economic dominance to penetrate foreign societies, business sectors, 
political parties, and universities to gather intelligence and thereby 
undermine their autonomy. Fortunately, several countries have woken up 
to this reality and finally realize how China intends to negatively 
impact the world. One year ago, Canada started to shut down the 
Confucius Institutes, stopping China from preaching their propaganda to 
affect youth in Canada. Australia's parliament also ratified amendments 
to their national security law to prohibit foreign interference, 
targeting China, apparently.
    Over the past few months, Hong Kong's people have demonstrated to 
the world that we believe in democracy and liberty, even though we face 
a harsh crackdown from the Chinese Communist Party regime. Hong Kong is 
an international city. China has benefited from its special customs 
status; 70% of foreign investment in China comes from Hong Kong. China 
utilizes Hong Kong to do illegal trading with North Korea and Iran and 
even purchases weapons from European countries which should have a 
weapons embargo on China. Therefore, international powers also have a 
say in the city's future. Hong Kong is on the front line of the battle 
against authoritarianism. It is vital that the United States work with 
like-minded countries to ensure that the rights and freedoms of Hong 
Kong's people are protected.

Our Call: Pass the Human Rights and Democracy Act of 2019

    This is why we are calling for the Hong Kong Human Rights and 
Democracy Act to be passed. The legislation provides critical 
strengthening to the Hong Kong Policy Act, which will act to place the 
rights and freedoms of Hong Kong's people at the heart of U.S.-Hong 
Kong policy. Also, we hope the U.S. Government can protect Hong Kong 
people who unfortunately have criminal records due to participation in 
protests in Hong Kong. We hope the U.S. Government can still grant 
visas to them through a regular routine if they intend to study or work 
in the States. The Hong Kong government intentionally prosecutes 
protesters with an ancient and colonial law which is the Public Order 
Ordinance. With this law, Hong Kong's people can easily be found guilty 
even if they do not participate in a protest. We sincerely ask for you 
all to ensure that people who have taken part in protests are not 
barred from receiving visas to the U.S.
    Lastly, we hope the U.S. Government can keep up the good work in 
monitoring the rise of an authoritarian China. The invasive economic 
dominance, reprehensible communist ideology, and deteriorating human 
rights situation of China should deeply concern the U.S. Government. 
Fifty years ago, U.S. President Truman famously gave a speech, which is 
the Truman Doctrine. He warned America and the world that the danger of 
Communism was real. He argued that it was the responsibility of the 
U.S. to support the free world. Fifty years later, Communist China 
poses a threat to international peace and the world liberal system. 
Hong Kong is now at the front line in the battle against 
totalitarianism. We never hesitate to take every step, with the last 
inch of our effort, to fight for freedom. The grandest of our ideals is 
an unfolding promise since the last world war that each human being 
deserves a chance to live with dignity and to live in liberty. Hong 
Kong is at a critical moment in its history. We are calling for the 
U.S. to stand with us in our fight for freedom, democracy, and dignity.
    Thank you.
                                 ______
                                 

                      Statement of Daniel Garrett
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                      


                                 ______
                                 

                        Statement of Sharon Hom
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       


                               __________

                  Statement of Hon. James P. McGovern

    Good morning and welcome to today's hearing on ``Hong Kong's Summer 
of Discontent and U.S. Policy Reponses.''
    This is the second China Commission hearing this year on the 
situation in Hong Kong. During our May hearing, the commission heard 
compelling testimony from Hong Kong pro-democracy advocates including 
Martin Lee and Nathan Law, who expressed serious concerns about the 
extradition bill that was quickly moving towards becoming law at that 
time. That legislation would have put anyone in Hong Kong--including 
U.S. citizens--at risk of extradition to mainland China, where lack of 
due process and custodial abuses have been well documented.
    Over the last 16 weeks, millions of people from all walks of life 
in Hong Kong have taken to the streets in an unprecedented and 
sustained show of unity. The protesters have inspired the world and 
have risked their lives, their health, their jobs, and their education 
to fight for the future of Hong Kong. Thank you for your courage and 
bravery. We stand in solidarity with you.
    As protests continued throughout the summer, Hong Kong police used 
excessive and unnecessary force to target those engaged in peaceful 
demonstrations. The U.N. High Commissioner for Human Rights has called 
for an investigation. The U.K. has suspended export licenses for the 
sale of tear gas and crowd-control equipment.
    In the House of Representatives, Congressman Chris Smith and I have 
introduced H.R. 4270, the ``PROTECT Hong Kong Act'' that would prohibit 
U.S. exports of police equipment to Hong Kong. U.S. companies should 
not be selling equipment used to violently crack down on pro-democracy 
protesters. I hope Congress will pass this legislation as soon as 
possible.
    Although consideration of the extradition bill has been suspended, 
the people of Hong Kong are calling for greater accountability and 
democratic participation. It's my understanding that the Hong Kong 
protesters have outlined ``Five Demands'' of Hong Kong and Chinese 
authorities.
    I look forward to hearing from today's witnesses what those demands 
are specifically; what progress has been made by the Chinese and Hong 
Kong governments on achieving them; what remains to be done; and how we 
in Congress and the international community might be helpful.
    The ``one country, two systems'' framework was enshrined in the 
1984 Sino-British Declaration and Hong Kong's Basic Law. This is an 
international treaty, signed by the Chinese government, to allow Hong 
Kong a ``high degree of autonomy'' with the ``ultimate aim'' of 
electing its Chief Executive and Legislative Council members by 
universal suffrage.
    The 2014 ``Umbrella Movement'' protests were sparked by the Chinese 
government reneging on its commitments to make Hong Kong more 
democratic. It is the continuing erosion of Hong Kong's autonomy and 
rule of law that fuel the protests in Hong Kong today.
    Over the last five years, the Chinese government has prioritized 
control over Hong Kong by stifling free expression and restricting the 
space for democratic participation. We have seen the prosecution and 
sentencing of pro-democracy leaders, the disqualification and removal 
of pro-democracy legislators, and the introduction of a new national 
anthem bill that would restrict free expression.
    Anson Chan, the former Hong Kong Chief Secretary and Legislative 
Council member, recently offered this insight: ``If only Beijing would 
understand what makes Hong Kong tick, what are the values we hold dear, 
then they can use that energy to benefit both China and Hong Kong. 
Instead, they have this mentality of control.''
    While the protests were sparked by concerns about the extradition 
bill, the heart of the discontent is that Hong Kong's political leaders 
do not represent and are not accountable to the people. Instead, Hong 
Kong's leaders are beholden to the Chinese government. Millions of 
people would not have to protest in the streets if they could freely 
choose their political leaders.
    I hope the Chinese government would understand that stability and 
prosperity can be achieved if Hong Kong's autonomy is respected and if 
the Chief Executive and Legislative Council members were elected 
without Chinese influence over candidate selection.
    In light of the continuing erosion of Hong Kong's autonomy and the 
recent violence against peaceful protesters, I believe it is time for 
the United States to reconsider its policies toward Hong Kong. U.S.-
Hong Kong relations are governed by the U.S.-Hong Kong Policy Act of 
1992 that commits the United States to treating Hong Kong as a separate 
customs territory from the rest of China, so long as Hong Kong remains 
``sufficiently autonomous.''
    I am proud to support H.R. 3289, the ``Hong Kong Human Rights and 
Democracy Act,'' sponsored by Senator Rubio and Congressman Smith. The 
legislation would require the Secretary of State to certify on an 
annual basis that Hong Kong is ``sufficiently autonomous'' to justify 
special economic, financial, and trade treatment different from 
mainland China under U.S. law.
    It is time we put the Chinese government on annual notice that 
further erosion of autonomy or a crackdown in Hong Kong will cause the 
city, and by extension mainland China, to lose its special economic and 
trade arrangement with the U.S.
    Over the years, Hong Kong has prospered and become the financial 
center of Asia because of its strong commitment to the rule of law, 
good governance, human rights, and an open economic system. The erosion 
of this unique system threatens not only the people who attempt to 
speak out, but the economic vitality of the city itself.
    To be clear, we stand together with the people of Hong Kong, and 
indeed all the people of China, when we express our concerns about the 
human rights violations of the Hong Kong and Chinese governments. Our 
focus today is doing right by the people of Hong Kong as they seek a 
democratic future that protects Hong Kong's autonomy and rule of law.
                                 ______
                                 

                     Statement of Hon. Marco Rubio

    I want to thank all of our witnesses, especially those who are on 
the front lines and have even been jailed multiple times, and we'll 
hear from them today about the things that have been done against them 
and your commitment to freedom and democracy. It is inspiring. It 
really is inspiring for those of us who live in this republic. It 
reminds us of why so many of us serve here and what we seek to preserve 
around the world, and that's why we want to stand with you. Your fight, 
and the fight of your fellow Hong Kongers, is the fight of every human 
who yearns for liberty and dignity, and who demands that their 
fundamental rights be respected and upheld. Let me say at the outset to 
the people of Hong Kong: We stand with you. And by we, I mean that this 
is a bicameral, bipartisan commitment, as you will see today and have 
seen in the past few days, on these efforts, across both political 
parties and every major figure. Not only that, but many Americans stand 
with you in your fight to keep your long-cherished freedoms.
    It was only a few months ago, in May, that we held a hearing on 
Hong Kong. It was titled ``Hong Kong's Future in the Balance: Eroding 
Autonomy and Challenges to Human Rights.'' At that hearing, and even 
before, it was highlighted on the fact that the Chinese Communist Party 
has been eroding Hong Kong's autonomy and freedoms guaranteed by the 
Joint Declaration and by the Basic Law. The May hearing discussed the 
extradition bill, that, had it passed, would have exposed everyone in 
Hong Kong--and that includes, by the way, 80,000 Americans who reside 
there--to the justice system or the so-called justice system of the 
Chinese Communist Party. The same justice system that routinely 
tortures those in its custody, that denies critically needed medical 
care, that arrests lawyers for serving their clients, and that places 
the desires of the Communist Party above every and any demand for 
justice. The proposed bill exposed the very real and increasing threat 
to Hong Kong's autonomy. But few of us could have anticipated the 
events that would follow.
    Since June, the people of Hong Kong have bravely taken to the 
streets for 15 straight weeks in more than 400 separate demonstrations 
involving more than 8 million people of every age and every background. 
Recently, there have been very credible reports that have emerged of 
the police's brutal treatment of demonstrators while in their custody. 
This weekend, for example, we saw images of the police holding down a 
protester whose head was bleeding, and spraying pepper spray into the 
wound, which is an act of total cruelty. We watched the police throw 
tear gas grenades at journalists, many of whom were well far away from 
the demonstrators. Since the 21st of July, pro-Beijing thugs--thugs 
associated with organized crime and the party's United Front 
activities--have violently confronted demonstrators and journalists and 
innocent passersby. And the police just looked on, looked the other 
way, and in some cases, even cooperated. And while detained 
demonstrators have been beaten, or their faces smashed into the 
concrete, journalists have photographed these same thugs in 
``detention,'' smoking and playing on their cell phones after attacking 
journalists and demonstrators.
    Although Hong Kong's Chief Executive may have promised to withdraw 
the extradition bill when the Legislative Council reconvenes in 
October, the government's violent response to the demonstrations 
demands accountability. And yet, Lam and the Hong Kong government 
refuse to press for any accountability for the violence that was 
committed and continues to be committed by Hong Kong's security forces 
against peaceful protesters. The Chief Executive did not listen to the 
outcry against the bill in Hong Kong since its introduction, but rather 
tried to ram it through the legislature.
    So what's at stake? The Hong Kong government's stubbornness in the 
face of public outcry has launched one of the greatest people power 
movements we have witnessed in recent memory. The actions of the 
government and of the people demonstrate that there are two Hong Kongs. 
The Hong Kong of the government, totally leveraged by the Chinese 
government, has proven that it's not committed to a free and autonomous 
future for Hong Kong, nor is it one of the rule of law or of justice. 
The other Hong Kong, the real one, is the one of its people--the 
students and youth activists, artists, journalists, doctors and nurses, 
lawyers, accountants, business people--from every walk of life, the 
city's people of all ages who have shown us a Hong Kong with a vibrant 
civic life prepared to stand up for its own autonomy, democracy, and 
liberty. It is clear that these two very different Hong Kongs are 
colliding, and therefore the city is at a crossroads. The fact of the 
matter is that maintaining autonomy is critical to U.S. interests, and 
it also has real implications for the rest of the world. Hong Kong's 
status as an international trade and investment hub is threatened as 
long as the long-cherished freedoms of the Hong Kong people are being 
threatened--threatened, by the way, not by us but by the Communist 
Party of China.
    So it is my belief that it's long overdue for the United States and 
the free world to respond. I hope we quickly pass the Hong Kong Human 
Rights and Democracy Act, which I hope will be heard next week in 
committee, so that we can provide this and future administrations with 
updated tools to respond robustly and flexibly to the Chinese Communist 
Party and its proxies who are undermining Hong Kong's autonomy. The 
U.S. Government and other democracies need to hold Chinese and Hong 
Kong officials accountable for their failure to uphold their 
commitments. The United States and other nations have options precisely 
because Beijing benefits from Hong Kong's special status--a special 
status which has made Hong Kong an international financial center built 
on the promises that China made to the world with regard to Hong Kong, 
which they seek to break. China's leaders must either respect Hong 
Kong's autonomy or know that their escalating aggression will lead them 
to face real consequences--not just from the United States but from the 
free world. And I issue one final warning in this regard: I anticipate 
fully that they'll continue their work to turn the system of government 
in Hong Kong into something resembling the one that exists in Macao--
one that allows them to intervene in the legal system as they wish.
    So we're here today to examine what has happened and look forward 
to Hong Kong's future. There are many challenges in our relationship 
with China, but Hong Kong must remain a priority. Hong Kong is not a 
Chinese internal affair, and the world has a responsibility to help the 
people of Hong Kong move towards a future that protects their 
individual freedoms and provides for civic well-being. I look forward 
to hearing your views in today's discussion. I thank you for your 
courage and commitment.
                                 ______
                                 

                  Statement of Hon. Christopher Smith

    The people of Hong Kong have shown us this summer--in often 
creative and inspiring ways--that a free people will not accept the 
boot of repression without protest. The protests roiling the streets of 
Hong Kong for the past three months are a daily reminder of the stark 
differences between free and authoritarian societies.
    I believe that the Hong Kong people have done the world a great 
service. Before a global television audience, they have exposed 
Beijing's plans to erode the freedoms guaranteed to Hong Kong by 
international treaty--in the process laying bare the perniciously 
repressive tactics used to keep the Chinese Communist Party in power.
    And have no doubt about it, the Chinese Communist government is 
both uniquely repressive and incredibly paranoid about maintaining its 
grip on power. There are now over a million Uyghurs interned in 
Orwellian political education camps. Human rights lawyers have 
disappeared and been horribly tortured in detention. Christians, 
Tibetans, labor activists, and journalists face unacceptable abuses and 
the most intrusive system of surveillance operating in the world today. 
Why would anyone want their political fate determined by Beijing? If 
given a choice, no one would.
    As inspiring as the protests have been, they have also raised 
serious concerns about the actions of the Hong Kong and Chinese 
Communist governments. The violence and use of force perpetrated 
against the protesters by thugs and police is extremely alarming.
    Representative McGovern and I were the first members of Congress to 
call on the Trump Administration to suspend the sale of tear gas, 
rubber bullets, pepper spray and other crowd-control equipment to the 
Hong Kong Police. I join now in Representative McGovern's call to 
quickly pass the PROTECT Hong Kong Act, which would end sales of such 
equipment to the Hong Kong Police.
    Also alarming are the repeated and irresponsible threats of 
intervention made by Chinese officials, particularly so given that this 
year marks the 30th anniversary of the Tiananmen massacre.
    The Hong Kong and Chinese Communist governments are alone 
responsible for the grievances expressed by the protesters and they 
alone can peacefully address their demands for universal suffrage and 
investigation of police tactics. Blaming the U.S. Government--and this 
Congress--for the protests is cowardly propaganda and not befitting a 
nation with aspirations of global leadership.
    Beijing's long-term plan is to undermine Hong Kong's autonomy and 
U.S. interests there. It is time that U.S. policy actively counters 
this plan. The first step is to pass the Hong Kong Human Rights and 
Democracy Act.
    Five years ago, in the midst of the Umbrella Movement, I introduced 
the Hong Kong Human Rights and Democracy Act with my then-CECC Cochair 
Senator Sherrod Brown. The bill allows for more flexible and robust 
U.S. responses to the steady erosion of Hong Kong's autonomy and human 
rights.
    Over the years, Senator Rubio and I upgraded the bill to reflect 
the kidnapping of booksellers, the disqualification of elected 
lawmakers, and the political prosecutions of Joshua Wong, Nathan Law, 
Benny Tai and others. However, every time we pushed for passage there 
was opposition from diplomats, experts, committee chairs, and the 
American Chamber of Commerce in Hong Kong.
    We were told not to upset the status quo. We were told our bill 
would cost U.S. businesses. We were told that upgrading U.S. policy 
would undermine diplomatic efforts to work with Beijing and its hand-
selected political leaders in Hong Kong. It is the same bad advice that 
we have been hearing on China since the 1990s. It is clear by now that 
China experts have failed the American people and their advice helped 
gut parts of our economy. Listening to their advice this time will fail 
the people of Hong Kong as well.
    It is time to pass this legislation in Congress. We have wide 
agreement for passage of this bipartisan and bicameral legislation. 
Specifically, the Hong Kong Human Rights and Democracy Act would:

    <bullet>  Direct the Secretary of State to certify to Congress 
annually whether Hong Kong continues to deserve special treatment under 
U.S. law different from mainland China in such matters as trade, 
customs, sanctions enforcement, law enforcement cooperation, and 
protection of human rights and the rule of law.

    <bullet>  Direct the State Department not to deny entry visas based 
on the applicant's arrest or detention for participating in nonviolent 
protest activities in Hong Kong.

    <bullet>  Require an annual report from the Commerce Department on 
whether the Hong Kong government adequately enforces U.S. export 
controls and sanctions laws.

    <bullet>  Require the Secretary of State to submit a strategy to 
Congress to protect U.S. citizens and businesses in Hong Kong from the 
erosion of autonomy and the rule of law because of actions taken by the 
Chinese Communist government.

    <bullet>  Require the President to identify and sanction persons in 
Hong Kong or in mainland China responsible for the erosion of Hong 
Kong's autonomy and serious abuses of human rights.

    I've heard it said that the business of Hong Kong is business, but 
it is clear to me now that the business of Hong Kong is freedom. It is 
freedom that undergirds the city's prosperity and its unique vitality. 
The U.S. and the international community have a clear interest in 
protecting the rights and rule of law promised to the Hong Kong people.
    I stand united with the people of Hong Kong and will not be silent 
in the face of threats to their guaranteed liberties and way of life. 
The U.S. and the international community also cannot be silent. The 
whole world has a stake in a peaceful and just resolution in Hong Kong 
and the survival of the ``one country, two systems'' model.
                          Witness Biographies

                              ----------                              

    Joshua Wong, Secretary-General of Demosisto, pro-democracy 
activist, and Umbrella Movement leader

    Joshua Wong is a pro-democracy activist and the secretary-general 
of Demosisto. At the age of 15, as the convenor of Scholarism in 2012, 
he organized protests against the government's plan to introduce 
patriotic education in Hong Kong. Subsequently, he rose to prominence 
as a core leader of the 2014 Umbrella Movement. He was nominated by 
Time as Person of the Year in 2014, listed as one of the ``world's 
greatest leaders'' by Fortune magazine in 2015, and nominated by 
members of the U.S. Congress for the Nobel Peace Prize in 2017. He was 
also one of Hong Kong's first three political prisoners since 1997, 
sentenced in 2018 with Nathan Law and Alex Chow for leadership roles in 
the Umbrella Movement. Most recently, Wong was arrested in August 2019 
for his role in a peaceful protest outside police headquarters during 
the anti-extradition bill movement.

    Denise Ho, pro-democracy activist and award-winning Cantopop singer 
and actress

    Denise Ho is a pro-democracy and LGBTQ rights activist and an 
award-winning Hong Kong-based singer, producer, and actress with 12 
studio albums and many film credits to her name. Ho is a prominent 
supporter of the anti-extradition bill protests in Hong Kong and a 
leading figure in Hong Kong's pro-democracy movement. She was arrested 
during the 2014 Umbrella Movement for taking part in non-violent 
protests and named as one of BBC's ``100 Women'' in 2016. The Chinese 
government has banned her from performing in China. Ho has been invited 
to speak at the Oslo Freedom Forum in Norway, the Global Summit in the 
United States, and Antidote in Australia. In July 2019, Ho addressed 
the UN Human Rights Council in Geneva on Hong Kong, during which she 
was repeatedly interrupted by the Chinese delegation.

    Sunny Cheung, spokesperson for the Hong Kong Higher Institutions 
International Affairs Delegation (HKIAD) and student at the University 
of Hong Kong

    Sunny Cheung is a spokesperson for the Hong Kong Higher 
Institutions International Affairs Delegation (HKIAD) and an activist 
from the student union of the University of Hong Kong. Established in 
July 2019, HKIAD includes all student unions of universities in Hong 
Kong in the primary mission of raising global awareness and support for 
Hong Kong's anti-extradition bill protesters and the pro-democracy 
movement. Cheung has participated in and organized exchange events and 
conferences in Hong Kong, Taiwan, South Korea, the United States, and 
the United Nations. He recently gave a speech in the U.K. House of 
Commons and met parliamentarians from Taiwan, Australia, Germany, and 
the United Kingdom to advocate for Hong Kong's struggle against Chinese 
authoritarian rule.

    Sharon Hom, Executive Director of Human Rights in China and 
professor of law emerita at City University of New York School of Law

    Sharon K. Hom is the executive director of Human Rights in China 
(HRIC), where she leads its international advocacy and strategic policy 
engagement with NGOs, governments, and multi-stakeholder initiatives. 
HRIC has covered human rights and democracy developments in Hong Kong 
extensively, including the 2014 Umbrella Movement. Hom has presented at 
numerous hearings on a wide range of human rights issues before key 
European, U.S., and international policymakers. Hom is a professor of 
law emerita at the City University of New York School of Law and has 
taught law for 18 years, including training judges, lawyers, and law 
teachers at eight law schools in China. She also teaches human rights 
seminars at New York University School of Law and the University of 
Hong Kong Faculty of Law. In 2007, she was named by the Wall Street 
Journal as one of the ``50 Women to Watch.''

    Daniel Garrett, Ph.D., political scientist and author of ``Counter-
Hegemonic Resistance in China's Hong Kong: Visualizing Protest in the 
City'' (2014)

    Daniel Garrett, Ph.D., is an author, photographer and political 
scientist focusing on Chinese security politics and securitization of 
Hong Kong. Since 2011 he has documented over 600 demonstrations, 
marches, and rallies and several elections in Hong Kong--including, 
most recently, the anti-extradition bill demonstrations. Garrett is a 
doctoral graduate of City University of Hong Kong with approximately 20 
years of engagement with Hong Kong and has completed his dissertation 
on ``One Country, Two Systems'' under China's national security 
framework. His first book, ``Counter-Hegemonic Resistance in China's 
Hong Kong: Visualizing Protest in the City'' (2014), examined Hong 
Kong's protest culture. Prior to academia, Garrett was a career 
national security professional providing strategic counterintelligence 
threat analysis and served at the Defense Intelligence Agency, National 
Security Agency, and in the United States Air Force.

                                 <all>
</pre></body></html>
